<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]


 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS
            FOR FISCAL YEAR 2021

                              ----------                              


                        TUESDAY, MARCH 10, 2020

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:01 a.m., in room SD-562, Dirksen 
Senate Office Building, Hon. John Kennedy (Chairman) presiding.
    Present: Senators Kennedy, Moran, Boozman, Daines, 
Lankford, Coons, Manchin, and Van Hollen.

                   FEDERAL COMMUNICATIONS COMMISSION


               opening statement of senator john kennedy


    Senator Kennedy. Senator Kennedy: The hearing of the 
Appropriations Subcommittee on Financial Services and General 
Government will come to order. We are honored today to have 
with us four of the distinguished folks from the FCC, including 
the FCC's Chairman.
    I hope that you will consider focusing your remarks on our 
new FCC plan to do a public auction with respect to 5G. I know 
the FCC's budget is very important. We can talk about that, of 
course, if you would like to but I plan on holding a second 
hearing dealing specifically to the budget because I anticipate 
that the 5G issue will dominate a lot of our time today.
    And again, I want to thank you all for being here. Why 
don't we swear you in? Can you stand and raise right hand. Do 
you promise to tell the truth, the whole truth, and nothing but 
the truth, so help you God?
    Chairman Pai. I do.
    Commissioner Rosenworcel. I do.
    Commissioner Starks. I do.
    Commissioner Carr. I do.
    Senator Kennedy. Thank you. I suppose we should start with 
our Chairman and then we will move to my left and go to the 
right. Okay with you? All right. I do not have an opening 
statement.
    Senator Coons, the Ranking Member, is on his way and he 
will be here probably in 5 or 10 minutes. At the appropriate 
time, if he has an opening statement, I will ask him to give 
that. Senator Moran, do you have anything you want to say?
    Senator Moran. I will wait for my questions.
    Senator Kennedy. Okay. All right. Mr. Chairman, you honor 
us with your presence. Thank you for being here. The floor is 
yours.
STATEMENT OF HON. AJIT PAI, CHAIRMAN, FEDERAL 
            COMMUNICATIONS COMMISSION
    Chairman Pai. Well, thank you, Chairman Kennedy, Members of 
the subcommittee, for holding this hearing to present the FCC's 
fiscal year 2021 budget request. The Commission, as you know, 
requests $343 million for FCC salaries and expenses and an 
auction spending cap of $134,495,000.
    And before I discuss our budget, I wanted to let you know 
that the Commission has a team in place to address the 
coronavirus situation and we have been consulting with industry 
on their preparedness. Importantly, we have also taken 
affirmative steps to protect FCC employees and ensure 
everyone's safety. I would be happy to go into more detail on 
that if need be.
    Turning back to the budget, I would like to thank the 
subcommittee for supporting the Commission's work over the last 
fiscal year. The funding that you have provided has enabled us 
to pursue policies that are delivering real results for 
American people. The digital divide is closing with new fiber 
deployment setting records in both 2018 and 2019. Broadband 
service is improving with average speeds skyrocketing, and the 
Internet remaining free and open.
    The United States is leading the world in 5G with the FCC 
delivering low, mid, and high band spectrum. One national 
carrier now covers over 200 million Americans with 5G, and 
small scale deployment is booming. And communications 
technology is making the American people safer and more secure, 
with improved and more targeted wireless emergency alerts now 
available to the vast majority of American citizens.
    But, of course, our work is not done. And looking to the 
future, our budget request would modestly increase general 
spending by $4 million and lift the spectrum auctions cap by $2 
million. These additional funds would support our continuing 
commitment to modernizing Information Technology, as well as 
cover legally mandated pay increases for our staff.
    This morning, I would like to briefly discuss how we intend 
to use the funds we are seeking to advance two priorities. 
First, closing the digital divide. I am proud, during the first 
2 years of this administration, we have reduced the number of 
Americans without access to 25 megabits per second fixed 
broadband by 30 percent, and the number of Americans without 
access to 250 megahertz megabits per second fixed broadband by 
about three quarters.
    And going forward, the Rural Digital Opportunity Fund 
represents the Commission's boldest step yet in bridging the 
digital divide. This new program will provide more than $20 
billion over the next decade to support up to gigabit service 
to up to 6 million rural homes and businesses through a 
competitive reverse auction.
    We will target support to areas that lack access to fixed 
25 megabits per second Broadband through a two-phase approach. 
The first phase will address areas of the country that 
everybody agrees are unserved, including more than 100,000 
locations each in States like Louisiana, Arkansas, Oklahoma, 
Illinois, and West Virginia.
    The second phase will cover areas in which the first phase 
does not yield winning bidders and any areas that are partially 
served. For instance, areas that are in a census block that are 
covered but the remainder are not. And to identify eligible 
areas for this second phase, we will use the data to be 
gathered through our Digital Opportunity Data Collection, a new 
program that the FCC adopted last August to collect more 
granular deployment data.
    The Commission's budget request is also essential to 
advancing the FCC strategy to facilitate America's superiority 
in 5G technology or 5G fast plan. That plan includes three main 
components, but this morning, I would like to concentrate on 
the first part, our efforts to make more spectrum available. 
During the last 16 months, we have completed three 5G spectrum 
auctions.
    All told, these auctions are making available almost 5 
gigahertz of high band spectrum for commercial use, and gross 
proceeds totaled over $10 billion. We have also been hard at 
work on mid band spectrum. On June 25, we will begin our 3.5 
gigahertz auction, which will make available 70 megahertz of 
spectrum. And I am pleased to report that we are on track to 
begin to C-band auction on December 8. I know that the C-band 
proceeding is of great interest to this subcommittee and I am 
proud of the decisive action that the FCC took last month to 
bring this essential spectrum to market for 5G.
    When I last testified before you on the C-band, I stated 
that my decision in this proceeding would be based on four 
guiding principles. The decision we made is consistent with 
each. First the FCC is making available a significant amount of 
C-band spectrum, 280 megahertz, for 5G. Second, by offering 
accelerated relocation payments, we will make the spectrum 
available quickly.
    Third, we are generating significant revenue for the 
Federal Government by holding a public auction as the 
subcommittee recommended. And fourth, we are protecting the 
services that are currently delivered using the C-band by 
reserving the upper 200 megahertz of the band for incumbent 
users.
    The FCC C-band auction is a major boost for American 
leadership in 5G and for bringing 5G to rural America. Vice 
President Pence recently said that this is, ``the plan the 
President has endorsed and we will be carrying forward,'' and I 
am proud to stand behind it. Chairman Kennedy, Ranking Member 
Coons, Members of the subcommittee, thank you once again for 
holding this hearing.
    I appreciate your interest in the FCC's work and look 
forward to answering your questions.

    [The statement follows:]
                  Prepared Statement of Hon. Ajit Pai
    Chairman Kennedy, Ranking Member Coons, and Members of the 
Financial Services and General Government Subcommittee, thank you for 
inviting me here to present the Federal Communications Commission's 
fiscal year 2021 Budget Request. The Commission requests $343,070,000 
for FCC salaries and expenses and an auction spending cap of 
$134,495,000.
    I'd like to take this opportunity to thank the subcommittee for 
supporting the Commission's work. The funding you have provided has 
allowed us to pursue policies that are working and delivering real 
results for the American people. The digital divide is closing with new 
fiber deployment setting records in both 2018 and 2019. Broadband 
service is improving with average speeds skyrocketing, and the Internet 
remaining free and open. The United States is leading in 5G with the 
FCC delivering low-, mid-, and high-band spectrum. One national carrier 
now covers over 200 million Americans with 5G and small-cell deployment 
is booming. And communications technology is making the American people 
safer and more secure with improved and more targeted wireless 
emergency alerts now available to the vast majority of our citizens.
    But of course, our work is not done. And looking to the future, our 
budget request would modestly increase general spending by $4 million 
and lift the spectrum auctions cap by $2 million. These additional 
funds would support our continuing commitment to improving and 
modernizing information technology as well as cover legally mandated 
pay increases for our staff.
    I last appeared before the subcommittee on October 17, 2019, to 
discuss the Commission's auctions process, and FCC staff appeared a 
month later to provide additional information related to our work in 
this area. Even in the short passage of time since the October hearing, 
the Commission has moved ahead aggressively to accomplish its strategic 
goals--closing the digital divide, promoting innovation, protecting 
consumers and public safety, and reforming the FCC's processes. As our 
budget and strategic goals indicate, we aim to move full speed ahead in 
the next fiscal year. I'd like to discuss with you some of the 
Commission's most important priorities for the upcoming year.
    Our top priority continues to be closing the digital divide. I've 
seen for myself what affordable high-speed Internet access can do for a 
community--for its families, its schools, its hospitals, its farms, its 
businesses--as well as the impact of its absence. That's why we've been 
working to promote rural broadband deployment by reducing regulatory 
burdens and reforming our Universal Service Fund (USF) programs to 
efficiently distribute funding for those areas where there isn't 
currently a business case for the private sector to deploy on its own. 
And I'm proud that during the first 2 years of this administration, 
we've reduced the number of Americans without access to 25/3 Mbps fixed 
broadband by 30 percent and the number of Americans without access to 
250/20 Mbps fixed broadband by about three-quarters.
    Through our 2018 Connect America Fund Phase II reverse auction, the 
Commission has now authorized nine waves of funding totaling over $1.4 
billion to expand connectivity to more than 627,000 homes and 
businesses nationwide, including in Arkansas, Delaware, Illinois, 
Kansas, Louisiana, Maryland, Montana, Oklahoma, and West Virginia. And 
by allocating these funds through a reverse auction process, we ended 
up reducing the costs of connecting these homes and businesses by more 
than two-thirds.
    Going forward, the Rural Digital Opportunity Fund represents the 
Commission's boldest step yet in bridging the digital divide. This new 
program will build on the success of the CAF Phase II auction and 
provide more than $20 billion over the next decade to support up to 
gigabit service for up to 6 million rural home and businesses through a 
competitive reverse auction. We'll target support to areas that lack 
access to fixed 25/3 Mbps broadband through a two-phase approach. The 
first phase will address areas of the country that everybody agrees are 
unserved. The second phase will cover areas in which the first phase 
doesn't yield winning bidders and any areas that are partially served 
(for instance, some households in a census block are covered but the 
remainder are not). And to identify eligible areas for this second 
phase, we will use the data to be gathered through our Digital 
Opportunity Data Collection, a new program to collect more granular 
deployment data that we adopted last August.
    Through the Rural Digital Opportunity Fund, we will connect more 
Americans to faster broadband networks than any other USF program in 
history. On February 28, 2020, the Commission adopted a Public Notice 
proposing bidding procedures for the first phase of the auction, which 
is scheduled to begin in October and will make up to $16 billion 
available for the deployment of fixed broadband networks across rural 
America. Our staff's initial estimate shows that in each of 25 States, 
there would be more than 100,000 locations that would be eligible for 
Phase I of the Fund. The benefits would be felt from the Gulf Coast to 
Appalachia, and from the Great Plains to the Pacific Ocean. For 
example, in Louisiana, the FCC staff estimates that approximately 
188,000 rural homes and businesses could be eligible for Phase I RDOF 
bidding. And Phase I would also have a big impact in Arkansas (222,000 
estimated eligible locations), Oklahoma (162,000), Illinois (246,000), 
and West Virginia (130,000), just to name a few States.
    On the mobile side of the broadband ledger, we recognize that there 
are going to be rural areas where the business case for deploying 5G, 
the next generation of wireless connectivity, may not exist. I firmly 
believe we must ensure that 5G narrows rather than widens the digital 
divide and that rural Americans receive the benefits that come from 
wireless innovation. That's why I intend to circulate a proposal soon 
to establish the 5G Fund. This program would make up to $9 billion in 
USF support over 10 years available to carriers to deploy advanced 5G 
mobile wireless services in rural America. This is a major investment 
in rural areas that will be allocated through a reverse auction and 
will target hard-to-serve areas with sparse populations or rugged 
terrain.
    One component of the 5G Fund bears special mention. I've seen 
first-hand that America's farms and ranches have unique wireless 
connectivity needs. That's why I intend to propose reserving at least 
$1 billion specifically for deployments facilitating precision 
agriculture.
    In another action aimed at closing the digital divide, the 
Commission at our February 28 Open Meeting adopted a Notice of Proposed 
Rulemaking to expand our White Space device rules, paving the way for 
improved broadband coverage for rural Americans. Unlicensed White Space 
devices operate in slivers of spectrum in the TV broadcast bands as 
well as other 600 MHz frequencies which are not being used for other 
authorized services. These airwaves are attractive because they can 
deliver communications services over long distances, making them well-
suited for wireless broadband services in rural areas. As part of our 
balanced spectrum strategy, I am optimistic that these proposed rules 
would provide for more robust service and efficient use of White Space 
devices particularly in rural areas, without increasing the risk of 
harmful interference to protected services in the TV bands. Our 
proposed rules would also provide flexibility for these devices to 
support applications like the Internet of Things.
    The Commission's budget request also is essential to advancing the 
FCC's strategy to Facilitate America's Superiority in 5G Technology, 
our 5G FAST Plan. The 5G FAST Plan includes three main components: 
freeing up spectrum, promoting wireless infrastructure, and modernizing 
regulations to encourage fiber deployment. I'd like to give you an 
update on the significant progress we've made on implementing this 
plan.
    During my tenure as Chairman, we have left no stone unturned in our 
exhaustive search for spectrum resources. We have repurposed airwaves 
to provide licensed and unlicensed spectrum and leveraged our 
engineers' expertise to find better and more efficient ways to use 
spectrum we've already allocated. The details may be complex, but the 
result is simple: American consumers are getting better value for the 
public resources they own, and our economy is better off.
    During the last 16 months, we have completed three 5G spectrum 
auctions. In Auction 101, we auctioned 850 megahertz of spectrum in the 
28 GHz band. In Auction 102, we auctioned 700 megahertz of spectrum in 
the 24 GHz band. And just last week, we concluded Auction 103, where 
bidders won licenses for 3,400 megahertz of spectrum in the upper 37, 
39, and 47 GHz bands. All told, these three auctions made available 
almost five gigahertz of high-band spectrum for commercial use. To put 
that in perspective, that is more spectrum than is currently used for 
terrestrial mobile broadband by all wireless service providers in the 
United States combined. And gross proceeds for these three auctions 
totaled over $10 billion.
    All of this highlights that money spent on our auctions program is 
an exceptionally wise investment. By the end of the last fiscal year, 
the Commission had held 93 auctions since Congress granted the FCC this 
authority in 1993 and raised an average of $4.5 billion a year, for a 
total of $117 billion sent to the Treasury.
    But despite the difficult and highly technical nature of this work, 
we have only used a small fraction of auctions proceeds--less than $2 
billion of the $117 billion total raised--to operate the program. 
That's a massive return on the investment you've helped make possible 
over the years.
    Looking ahead, we will continue to be exceptionally active with 
respect to 5G spectrum auctions, and our focus will be on mid-band 
spectrum. On June 25, for example, we will begin our 3.5 GHz auction, 
where we will make available 70 megahertz of spectrum for Priority 
Access Licenses. Indeed, this auction will involve the greatest number 
of licenses--over 22,000--ever offered by the FCC in a single auction.
    And I am pleased to report that we're on track to begin a C-band 
auction on December 8. I know that the C-band proceeding is of great 
interest to this subcommittee, and I am proud of the decisive action 
that the FCC majority took last month to bring this essential spectrum 
to market for 5G.
    When I last testified before you on the C-band, I stated that my 
decision in the proceeding would be based on four guiding principles. 
First, the FCC must make available a significant amount of C-band 
spectrum for 5G. Second, we must do so quickly. Third, we must generate 
revenue for the Federal Government. And fourth, we must ensure that the 
services that are currently delivered using the C-band can continue to 
be delivered to the American people.
    The Order that the FCC adopted advances each of these principles, 
and it's important to recognize that on many of the issues we tackled 
there is a lot of common ground. When it comes to making available a 
significant amount of C-band spectrum for 5G, there is broad consensus 
that we got it right by reallocating 280 megahertz of spectrum (3.7-
3.98 GHz) for flexible use, including 5G. When it comes to ensuring 
that services that are currently delivered using the C-band can 
continue to be delivered to the American people, there is broad 
consensus that we got it right by reserving the upper 200 megahertz of 
the C-band (4.0-4.2 GHz) for incumbent operators and by requiring 
winning bidders in the C-band auction to pay for incumbents' reasonable 
relocation expenses. When it comes to generating revenue for the 
Federal Government, there is broad agreement that we got it right by 
deciding to hold a public auction of C-band spectrum rather than 
authorizing satellite operators to conduct a private sale. And when it 
comes to making available C-band spectrum for 5G quickly, there is 
broad agreement among Republicans and Democrats in Congress that 
accelerated relocation payments should be offered to satellite 
operators if they meet deadlines for clearing C-band spectrum quickly.
    Why are these payments necessary? The answer is simple: speed. The 
Commission, wireless providers, and American consumers all want 
satellite operators to vacate the lower portion of the C-band quickly. 
And this transition will be much faster if we align the incentives of 
satellite operators with the public interest in expedited access to 
that spectrum.
    To be sure, I recognize that there is disagreement regarding the 
amount of these accelerated relocation payments. Some believe that the 
payments in our Order were too small; indeed, we saw numbers proposed 
that were greater than the annual GDP of Iceland. Others have 
criticized them as being too large. But I believe we've gotten it just 
right at a maximum of $9.7 billion.
    We arrived at this figure by working with our economists and other 
expert staff to determine the value to auction winners of having 
satellite operators clear the spectrum in an accelerated timeframe and 
to approximate the size of payments that would be made in the private 
marketplace absent holdout and free-rider problems. You can find a 
detailed discussion of this topic at paragraphs 211 through 240 of our 
Order.
    I also think that it is important to clear up a couple of points of 
potential confusion about accelerated relocation payments. First, they 
will be made by wireless carriers, not by the FCC and not by the 
American taxpayer. And second, to the extent they impact the proceeds 
of the auction at all, they are likely to increase those proceeds. 
That's because without a strong incentive for satellite operators to 
cooperate, it will take years longer to clear this spectrum, 
dramatically reducing the value of this spectrum opportunity to 
wireless bidders. It's like repainting one's house before selling it; 
yes, there are costs to doing that, but the costs are more than offset 
by the higher sales price. And our conservative approach here means the 
costs of accelerated relocation are outweighed by the benefits to the 
Treasury (not to mention the public at large).
    In short, the idea that we would raise $9.7 billion more for the 
Treasury if we removed the $9.7 billion of accelerated relocation 
payments from our Order is simply wrong. As our agency's expert 
economists informed me, this is not a matter of shifting money from one 
pot to the other. Indeed, had we taken that step or reduced accelerated 
relocation payments to $1 billion, we would be likely to raise less 
revenue through our C-band auction.
    Finally, I would note that the Communications Act gives us ample 
legal authority to move forward with our approach to the C-band. 
Section 316 of the Act allows us to modify the licenses of C-band 
incumbents. Section 309 of the Act authorizes a public auction of the 
lower 280 megahertz of the C-band for flexible-use, overlay licenses. 
Section 303 of the Act gives us the authority to set new technical 
rules for the band. And section 303(r) of the Act lets us require the 
winners of the public auction to pay for the relocation of the band's 
incumbents under our Emerging Technologies framework.
    In addition to the C-band, we've been hard at work on the two other 
aspects of the 5G FAST plan--promoting wireless infrastructure and 
modernizing regulations to encourage fiber deployment.
    And our work to clear regulatory hurdles and facilitate 
infrastructure build-out is spurring record-breaking capital 
investments in essential infrastructure, including fiber-optic cables 
and small cells. Indeed, hundreds of thousands of small cells are being 
deployed on an annual basis in addition to new towers, creating new 
employment opportunities for skilled employees doing this work. 
Notably, Commissioner Carr has been at the forefront of bringing 
attention to the need to train more skilled infrastructure specialists 
and developing programs to address this problem.
    Thus far, I've discussed closing the digital divide and promoting 
innovation. Our third priority is to continue fulfilling our important 
mission to enhance consumer protection and protect public safety. We 
ended last month by following up on a number of consumer protection and 
safety issues of importance to this subcommittee. First, we acted on 
the outstanding investigatory efforts of our Enforcement Bureau and 
proposed significant fines against the nation's four largest wireless 
carriers for apparently selling access to their customers' location 
information without taking reasonable measures to protect against 
unauthorized access to that information. We also let the carriers know 
in no uncertain terms that they may not disclose their customers' 
location information to a third party without their customers' express 
consent. This FCC will not tolerate phone companies putting Americans' 
privacy at risk.
    We also continue to protect American citizens and the national 
security of the United States. At our November 2019 meeting, the FCC 
unanimously adopted rules to prohibit USF fund recipients from 
purchasing equipment from vendors deemed national security risks, 
initially designated Huawei and ZTE as such vendors. In February 2020, 
the FCC launched an information collection from carriers on their use 
of Huawei and ZTE equipment and services in their networks.
    Under the leadership of Commissioner O'Rielly, the Commission has 
been reporting on and calling attention to the diversion of 911 fees 
collected at the State level. Our latest report finds that in 2018, 
over $187 million in taxpayer funds (or approximately 7.0 percent of 
all 911/E911 fees collected) that should have been used for the 
implementation and support of 911, E911, and NG911 services were 
instead used to fund other activities. This is an outrageous misuse of 
these funds and an abuse of public trust.
    Additionally, February 17, 2020 was the effective date of Kari's 
Law, which requires all new multi-line telephone systems--which are 
commonly used in hotels, office buildings, and college campuses--to 
directly route 911 calls, without the need to dial a prefix to reach an 
outside line. This will help save lives by enabling those who need it 
most to reach help immediately.
    Another public safety issue involves suicide prevention and mental 
health. Suicide rates in this country are reaching levels not seen 
since World War II. Vulnerable populations are particularly at risk, 
such as veterans, rural Americans, and LGBTQ youth. Access to trained 
counselors could make the difference between life and death. And so, 
with the urging of Members of this subcommittee, we have proposed to 
designate 988 as a new, Nation-wide, 3-digit number for suicide 
prevention and mental health. If this number is implemented, those in 
crisis will only need to dial a 3-digit number to be connected with 
professionals who staff the current National Suicide Prevention 
Lifeline (1-800-273-TALK).
    Another serious public safety issue involves the illicit use of 
contraband cellphones in prison. I've seen for myself the impact that 
these devices can have within and outside of prison walls, in places 
like Jess Dunn Correctional Center in Taft, Oklahoma. We intend to 
continue our work in addressing this dangerous problem, and I want to 
thank Senator Lankford for his leadership on the issue.
    I am also pleased to provide you with an update on our work to 
combat what Chairman Kennedy has called ``a nuisance and an intrusion 
into family dinners, jobs, weddings, graduations and ballet 
recitals''--robocalls. I know this is another important concern of 
every Member of this subcommittee. Like most Americans, and like me, 
you are sick and tired of robocalls. The Commission has continued its 
mission to fight robocalls--consistently our top source of consumer 
complaints--by allowing telephone providers to block suspected 
malicious and illegal calls by default, and we've taken aggressive 
enforcement action against these violators. And last week, I shared 
with my fellow commissioners a draft Report and Order to mandate the 
implementation of caller ID authentication technology known as STIR/
SHAKEN. This technology enables phone companies to verify the caller ID 
information that is transmitted with a call and will help them identify 
calls with illegally spoofed caller ID information before those calls 
reach Americans' phones. At our March Open Meeting, we'll vote on this 
item--a significant step toward ending the scourge of spoofed robocalls 
and a step supported by Congress's passage of the TRACED Act.
    We're pleased that we can absorb the costs for the TRACED Act--less 
than $200,000--within our budget, but that isn't always the case. For 
example, our staff estimates that the newly enacted PIRATE Act will 
cost upwards of $11 million to administer, potentially bringing our 
total budget figure to $354 million. That number would include an $8 
million increase to the base budget. Specifically, in order to combat 
the problem of illegal radio operations, the statute requires a 
sweeping process that will require new equipment and a substantial 
number of additional field agents to implement fully. We are submitting 
a formal amendment to the Office of Management and Budget concerning 
costs associated with the full implementation of the PIRATE Act and 
will work with this subcommittee toward determining a reasonable 
funding level for that program.
    As we move ahead in fiscal year 2020 and look forward to fiscal 
year 2021, I want to assure the subcommittee that we will continue 
essential projects that focus on American territories and Tribal 
communities. A good example of the former is the $950 million in long-
term funding we approved last year to expand, improve, and harden 
broadband networks in Puerto Rico and the U.S. Virgin Islands through 
the Uniendo a Puerto Rico Fund and Connect USVI Fund.
    And with respect to Tribal communities, with the subcommittee's 
support and direction, we will be continuing our efforts to expand 
broadband opportunities on Tribal Lands. We have increased support for 
carriers providing communications services on Tribal lands and created 
a priority window that allows Tribes to obtain free access to 
unassigned 2.5 GHz spectrum on rural Tribal Lands. This priority window 
opened on February 3, 2020 and will close on August 3, 2020. We are 
also following through with the subcommittee's direction to work with 
Tribes to ensure that the Commission is adequately addressing their 
needs.
    What's next for the Commission itself? During the current fiscal 
year, the Commission will be making a fresh start in a new headquarters 
building where we will realize rent savings of millions of dollars in 
fiscal year 2021 and future years. This subcommittee is responsible for 
funding the move and we greatly appreciate your support. Our staff has 
worked hard to develop a comprehensive plan and we are hoping to have a 
seamless move at the end of June.
    Finally, I want to thank Senator Moran once again for his 
leadership in prioritizing information technology for all agencies. We 
hired a new Chief Information Officer since I last testified, and we 
continue to upgrade and modernize our systems.
    As you can see from this testimony, the FCC has been exceptionally 
busy and will continue to be so during fiscal year 2021. And we have 
been able to accomplish all of this because of the talents and 
dedication of our extraordinary staff. Indeed, since I became Chairman, 
we have held 38 monthly Open Meeting at which more than 200 items were 
adopted, 80 percent of which were passed with bipartisan support. The 
hard-working men and women of the FCC serve the American public each 
day with skill and commitment, and I am deeply honored to work 
alongside them.

                            *      *      *

    Chairman Kennedy, Ranking Member Coons, and Members of the 
subcommittee, thank you for this opportunity to testify. I am pleased 
to answer your questions.

    Senator Kennedy. Thank you, Mr. Chairman. Mr. Ranking 
Member, would you like to make a statement?
    Senator Coons. I am fine. Thank you, Mr. Chairman. Let's 
proceed.
    Senator Kennedy. Thank you, Senator. Commissioner Carr, you 
honor us with your presence. Thank you for being here. The 
floor, sir, is yours.
STATEMENT OF HON. BRENDAN CARR, COMMISSIONER, FEDERAL 
            COMMUNICATIONS COMMISSION
    Commissioner Carr. Thank you. Chairman Kennedy, Ranking 
Member Coons, Senator Moran, thank you for the opportunity to 
testify. I want to begin with an update on the FCC's work to 
accelerate the build out of 5G. Just a few short years ago, in 
2015 and 2016, we were at serious risk of seeding U.S. 
leadership in 5G to China. We were in jeopardy of losing to our 
overseas competitors, the good-paying American jobs, and the 
half trillion dollars that 5G can add to the U.S. economy.
    We have now flipped the script. We have secured the 
strongest 5G platform in the world. We must now maintain this 
momentum. And time is of the essence because we know what is at 
stake with 5G, $275 billion in private sector investment 
without a penny in new taxes, 3 million jobs, and $500 billion 
in economic growth. The country that builds 5G first will reap 
the benefits of early adopter jobs and services. To achieve all 
this, the FCC has implemented a 5G plan that focuses on 
infrastructure and spectrum.
    On infrastructure, we modernized outdated rules that only 
slow down Internet builds. On spectrum, we have pursued an all-
of-the-above approach. We freed up more high band spectrum than 
any country in the world. We have pushed hard on low band 
coverage spectrum for 5G. And on mid band, we had to play 
catch-up. That is because in 2017, when leadership changed at 
the FCC, the agency had no mid band spectrum in the pipeline.
    We have worked diligently since then to correct that 
mistake. And our 5G plan is now delivering results. Internet 
speeds are up 85 percent. Internet providers built out more 
miles of high-speed fiber last year than ever before smashing 
records. The digital divide has narrowed by nearly 30 percent. 
And competition for high-speed services has increased. We must 
now continue to build on this success, and our decision last 
month on C-band is key to that effort.
    Unlocking the C-band has been a tremendously complicated 
and important policy puzzle to solve. It involved nearly every 
industry the Commission regulates. The best minds at the FCC 
ground away at it for 2 years, relying on all our capabilities, 
engineering, economics, and the law. The Chairman and the FCC's 
dedicated staff deserve immense credit for the work they have 
done. And all that effort will deliver results. We will clear 
300 megahertz of mid-band.
    Americans will start benefiting from these services next 
year, ensuring that our communities don't wait any longer than 
necessary for the opportunity that high-speed connections can 
enable and we will do all of this using the FCC's tried-and-
true auction process which will return tens of billions of 
dollars to the U.S. Treasury.
    Our approach strikes the right balance. To understand why, 
consider where we started. Two years ago, satellite companies 
proposed selling just 100 megahertz in a private sale. That 
would not have made enough spectrum available for 5G. That 
would not have assured a fair and transparent bidding process. 
And that would not have returned a single penny to the 
taxpayer. Satellite companies may have pocketed $30 billion or 
more. We said no. Satellite companies then increased their 
spectrum target to 200 megahertz, quickened their pace of 
clearing and offered a 50/50 split to Treasury, one that Senate 
Commerce leadership tracked in their own legislation.
    Again, we said no. Instead, we determined that the amount 
of spectrum cleared will be 300 megahertz, that we will conduct 
the auction using the ordinary public process that Americans 
will start to see this spectrum next year that satellite 
companies could receive acceleration payments if and only if 
they earn it.
    In response, at least one satellite company has now 
threatened lawsuits in bankruptcy, hoping the FCC would cave 
and offer them billions more in cash. We said no. We stuck with 
a final decision determined by the facts in the law, not by the 
desire of any satellite company to pad their balance sheet.
    I am proud of the Commission's multi-year work on the order 
because it preserved vital broadcasting services, especially in 
rural America. It will make a material impact on Americans' 
ability to access 5G services quickly, and it will return 
billions of dollars to the American taxpayer.
    So in closing, I want to thank you again, Chairman Kennedy, 
Ranking Member Coons, Senator Moran, for holding this hearing, 
and I look forward to your questions.

    [The statement follows:]
                Prepared Statement of Hon. Brendan Carr
    Chairman Kennedy, Ranking Member Coons, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify. It is a 
privilege to appear before you.
    I want to begin today with an update on the steps we are taking at 
the FCC to accelerate the buildout of 5G and other high-speed Internet 
infrastructure in communities across the country.
    Just a few short years ago, in 2015 and 2016, we were at serious 
risk of ceding U.S. leadership in 5G to China. We were in jeopardy of 
losing the good-paying American jobs and the half trillion dollars that 
5G can add to the U.S. economy to our overseas competitors. We have now 
flipped the script and secured the strongest 5G platform in the world 
here in the U.S.
    We now need to sustain this momentum. Time is of the essence, 
because we know what is at stake with 5G. $275 billion of private 
sector investment, with not a penny of new taxes. Three million jobs. 
$500 billion in economic growth. What is more, the country that builds 
strong 5G first will reap the benefits of early adopter jobs and 
services. The trillion-dollar club--those companies with market caps 
above $1 trillion--has just four members: Apple, Microsoft, Amazon, and 
Google. They're all American, and they all ride on our world-leading 
mobile networks. That's not a coincidence, and when the next Amazons 
and Apples are invented, we want them to be invented here on our 5G 
networks. We want the jobs, the services, and the opportunities they 
will create to be realized right here in the U.S.
    Beyond global competitions and unfathomable dollar figures, we act 
with a sense of urgency on 5G because we know what a connection means 
to American families. Every day that a family lacks adequate Internet 
access may be a day a doctor's appointment is missed, a picture to 
loved ones goes unsent, or homework remains unfinished.
    The FCC has acted to secure the benefits of 5G for all Americans. 
We have done so in two main areas: infrastructure and spectrum.
    On infrastructure, we modernized the outdated rules that only 
slowed down Internet builds and drove up costs. By cutting red tape, we 
helped accelerate infrastructure builds, including in rural and remote 
parts of the country that had been left on the wrong side of the 
digital divide for too long.
    On spectrum, we have pursued an all-of-the-above strategy. On high-
band, we completed the first auction of millimeter wave spectrum in the 
world last year and have now held several more. On low-band, the U.S. 
started pushing this spectrum out into the commercial market more than 
a decade ago. On mid-band, though, the U.S. had fallen behind. In 2017, 
when leadership changed at the FCC, the agency had no mid-band spectrum 
in the pipeline. Although mid-band is a key input for securing U.S. 
leadership in 5G, the prior FCC left the mid-band cupboard empty.
    We have worked diligently since then to correct this mistake. At 
3.5 GHz, we ensured mid-band spectrum will work in the real world, and 
we will now auction it off this summer. With EBS, which had not been 
assigned in roughly half the country, we are pushing mid-band out into 
the commercial marketplace. At 2.5 GHz, our decision in Sprint/T-Mobile 
enables the combined company to build out this valuable mid-band 
nationwide. At 2 GHz AWS-4, we now have a binding commitment from DISH 
to build broadband using its mid-band licenses--an intensive use of the 
spectrum that DISH was not planning on absent the transaction and our 
demands. We are pressing ahead with 5.9 GHz and 6 GHz, as well.
    The FCC's actions have delivered results. Internet speeds in the 
U.S. are now up 85 percent since year end 2016. Internet providers have 
been building out more miles of high-speed fiber than ever before--
smashing prior records. Just last year, providers built out over 
450,000 route miles of fiber, which is enough to wrap around the Earth 
18 times. The digital divide--the percentage of rural and other 
Americans that lack access to high-speed Internet services--narrowed by 
about 30 percent over the first 2 years of this administration alone. 
Competition has increased, too, with the percentage of Americans with 
more than two options for high-speed Internet services increasing by 52 
percent between year end 2016 and year end 2018.
    We must continue to build on the success we are seeing. We need to 
extend America's winning streak. That means continuing our work to free 
up more spectrum and streamline outdated infrastructure rules.
    Our decision last month on C-band is a key part of that effort. 
Unlocking the C-band has been a tremendously complicated and important 
policy puzzle to solve. It involves nearly every industry that the 
Commission regulates, and the outcome was not obvious. The best minds 
at the FCC ground away at it for 2 years, relying on all of our 
capabilities: engineering, economics, and law. The Chairman and the 
FCC's dedicated staff deserve immense credit for their work.
    All of that work will deliver tangible results to the American 
people. We will clear 300 MHz of C-band spectrum, which is more than 
incumbents ever thought they could give up and is enough to enable a 
number of providers to offer truly mobile 5G services. Americans will 
start benefiting from these services next year with a full clearing 
coming in 2023--ensuring that our communities need not wait any longer 
than necessary to access high-speed services and all of the 
opportunities it enables. And we will do all of this using the FCC's 
tried and true auction process, using rules that are fair and known, 
and which will result in tens of billions of dollars being returned to 
the American taxpayer.
    Our approach strikes the right balance. It creates incentives that 
can bring C-band spectrum to the market quickly while protecting the 
hundreds of millions of Americans who currently rely on C-band 
services. Incumbent satellite providers are not going to see the level 
of accelerated relocation payments that they sought--not even close--
but the figure we arrived at is based on the law, the facts, and the 
FCC's extensive rulemaking record. It is derived from economists' 
estimates of the value that early spectrum clearing creates. And it 
relies on an extensive technical assessment of our alternatives should 
the satellite companies not cooperate--namely to provide for the design 
and construction of satellites, fiber, or other technological means to 
ensure continuity of video delivery, especially to rural America.
    Let's consider where we started and where we ended. Two years ago, 
the major satellite companies proposed selling 100 MHz of C-band to a 
wireless company or companies in a private sale. That proposal would 
have made enough room in the C-band for perhaps only one wireless 
provider, it would not have assured a fair and transparent bidding 
process, and it would not have returned a single penny to the taxpayer. 
Satellite companies may have pocketed $30 billion or more. We said 
``no.'' Over the course of the next year, the satellite companies 
increased their spectrum target to around 200 MHz, quickened their pace 
of clearing, and offered a 50-50 split to Treasury--a split that Senate 
Commerce Committee leadership tracked in their own legislation. Again, 
we said ``no.'' Instead, we ruled that the amount of spectrum cleared 
will be 300 MHz, that we will conduct the auction using the ordinary 
public process, that the public will start to use the spectrum next 
year, and that the satellite companies could receive single-digit 
billions of dollars--if and only if they earn it. In response, at least 
one of the satellite companies subsequently has threatened lawsuits and 
bankruptcy, hoping the FCC would cave and offer them billions more in 
cash. We said ``no.'' We stuck with a final decision that is supported 
by the facts and the law--not by the desire of any satellite company to 
improve its balance sheet.
    I am proud of the entire Commission's multi-year work on the order 
because it will preserve vital broadcasting services, especially in 
rural America where technological alternatives to satellite are costly 
or infeasible. It will make a material impact on Americans' ability to 
access 5G services quickly. And it will return billions of dollars to 
the American taxpayer.

                            *      *      *

    I want to thank you again Chairman Kennedy, Ranking Member Coons, 
and distinguished Members of the subcommittee for holding this hearing. 
I welcome the chance to answer your questions.

    Senator Kennedy. Commissioner Rosenworcel.
STATEMENT OF HON. JESSICA ROSENWORCEL, COMMISSIONER, 
            FEDERAL COMMUNICATIONS COMMISSION
    Commissioner Rosenworcel. Yes. All right. Good morning, 
Chairman Kennedy, Ranking Member Coons, Senator Moran. Thank 
you for having me today. I believe the future belongs to the 
connected. No matter who you are or where you live in this 
country, you need access to modern communications to have a 
fair shot at 21st century success.
    That is why we need a strong FCC acting in the public 
interest. But right now the agency is falling behind on its 
responsibilities under the Communications Act, and going 
forward, it has a whole lot of new duties heading its way from 
Congress. So it is cause for concern that the FCC is requesting 
a budget of $343 million, an amount that when inflation is 
taken into account, leaves us with less than before. At the 
same time, the agency is operating with one of the lowest 
staffing levels in its history.
    So I have some ideas about how to fix this but I first want 
to address a specific proceeding that could use your help, one 
that cuts directly to the heart of the agency's mission. You 
see, throughout our history, there have been opportunities big 
and small to sway the course of United States spectrum policy, 
and Congress and this agency have a proud tradition of rising 
to the challenge. Decades ago, we took the academic ideas of 
Ronald Coase and ushered in a new era of competitive spectrum 
auctions.
    More recently, we blazed a trail for two-sided incentive 
auctions with the first of its kind repurposing of broadcast 
spectrum. And then we did something creative. We took the 
revenues we raised in that auction and answered the call of the 
9/11 Commission by helping to develop a national public safety 
network for First Responders. And last month, the FCC tackled 
another spectrum frontier with the repurposing of the C-band 
for 5G service.
    But rather than working with Congress, the FCC went out on 
its own and there are three things that are flawed with the 
FCC's C-band plan. First, the FCC's decision is wrong on the 
law. It exceeds our statutory authority under Section 309J of 
the Communications Act because we divert significant proceeds 
beyond relocation expenses from the United States Treasury. 
Second, the FCC's decision is wrong on the economics. The 
amount of the FCC's nearly $10 billion acceleration payment is 
plucked out of the air. There is no math behind it.
    Third, the FCC's decision is wrong on policy. Working with 
Congress we can use the billions of dollars in revenues this 
auction could raise to do the very infrastructure projects that 
this country so desperately needs. We could start by using this 
auction as a vehicle for Congress to repeal legislation that 
requires the FCC to take away T-band spectrum used by police 
and fire officials across the country. Then we could fund a new 
initiative to help with rural broadband, next generation 911, 
close the homework gap so that students who struggle with 
Internet access and can't do their nightly schoolwork have 
options so they don't have to write their papers in the parking 
lot at the library or while nursing a soda at a fast food 
restaurant with free Wi-Fi.
    Of course, this proceeding is not the only place where the 
agency needs to do better. So let me highlight two other issues 
that deserve your attention, robocalls and broadband. At the 
beginning of this administration there were roughly 2 billion 
robocalls a month. That number is now routinely 6 billion a 
month. But the FCC has just 12 staff fully dedicated to 
robocall enforcement and it takes an average of 649 days to 
complete a robocall enforcement action. That is insane. It is 
like trying to empty the ocean with a teaspoon.
    And with broadband, it is a fact that the FCC's broadband 
maps are totally inaccurate. They have been panned by cabinet 
secretaries, Members of Congress, and of course consumers. 
Nonetheless, the agency is moving ahead with the plan to spend 
the vast majority of our broadband funding for the next 10 
years, which is $16 billion, without first doing a thing to 
improve our maps or fix the data we have today. That is a 
mistake. We first need to know where broadband is and is not. 
We should have maps before money and data before deployment.
    Finally, now is absolutely the time for the FCC to talk 
about the coronavirus disruption and how technology can help. 
Nationwide, we are going to explore the expansion of telework, 
telehealth, and teleeducation. In the process, we are going to 
expose some really hard truths about the scope of the digital 
divide.
    The FCC should be convening broadband providers right now 
to prepare. It should be identifying how it can use its 
universal service powers to support connected care for 
quarantined patients and how Wi-Fi hotspots can be available 
for loan for students who have schools who have shut and find 
that their classes have migrated online.
    Chairman Kennedy, Ranking Member Coons, Senator Moran, 
thank you for holding this hearing. When the FCC is 
appropriately funded and focused, there is a lot we can do to 
harness the power of our communications technology for good. I 
look forward to answering any questions you might have.

    [The statement follows:]
             Prepared Statement of Hon. Jessica Rosenworcel
    Good morning, Chairman Kennedy, Ranking Member Coons, and Members 
of the subcommittee. Thank you for the opportunity to appear before you 
today.
    I believe the future belongs to the connected. No matter who you 
are or where you live, you need access to communications technologies 
to have a fair shot at 21st century success. That's why it's never been 
more important to have a strong Federal Communications Commission 
acting in the public interest.
    Nevertheless, I believe the budget request before you proposes to 
underfund the FCC. At a time when the agency is already struggling to 
fulfill its core responsibilities under the Communications Act, and 
when it is on the cusp of significant new work directed by Congress, 
the FCC has requested a budget of $343,070,000--an amount that when 
inflation is taken into account leaves the agency with less, not more. 
In addition, it proposes to maintain one of the lowest staffing levels 
in the FCC's history. We request nearly a thousand fewer FTEs than the 
agency had at its peak in 1995. Since then, the U.S. population has 
grown by 24 percent, our national GDP has nearly doubled, and our 
jurisdiction has expanded to cover one-sixth of the Nation's economy. 
But our size has not kept pace with all this activity.
    This choice is irresponsible because according to the most recent 
Federal Viewpoint Survey more than one-third of the FCC's staff report 
they do not have the resources they need to do their jobs. I look 
forward to discussing with you my ideas for how the FCC can start to 
reverse this trend. But first I'd like to take this opportunity to 
address a specific proceeding that could use your help too--one that 
cuts directly to the heart of this agency's mission.
    You see, throughout the course of our history, there have been 
opportunities big and small to sway the course of United States 
spectrum policy. For the most part, both Congress and this agency have 
a proud tradition of rising to the challenge. Decades ago we took the 
academic ideas of Ronald Coase and ushered in a new era of spectrum 
auctions. Since then, this agency has delivered immense value to the 
American people. We held more than 90 auctions, issued more than 50,000 
licenses, and raised over $116 billion for the United States Treasury.
    More recently, we blazed a trail for two-sided incentive auctions 
with the first-of-its-kind repurposing of broadcast spectrum. Today 
this effort is regarded as a resounding success--because we reoriented 
ourselves from what was to what could be. Instead of just solving the 
spectrum problems of a few companies, we took the revenues we raised in 
the incentive auction and built the Nation's first interoperable public 
safety network for first responders.
    Last month, the FCC tackled another frontier with the repurposing 
of C-band spectrum for 5G service. It may be among the most challenging 
slices of spectrum the FCC has ever taken up. It has unique features 
that were not on congressional radar when this agency was given 
authority to repurpose spectrum.
    But rather than working with Congress to find a way forward, this 
time we try to solve the problem the wrong way. There are three things 
that are fundamentally flawed with the FCC's plan.
    First, the FCC's decision is wrong on the law. Section 309(j) of 
the Communications Act requires that all deposits the FCC may require 
to bid in an auction, as well as proceeds from the use of an auction, 
are deposited in the United States Treasury. The FCC tries to run 
around this requirement by suggesting it can create a third category of 
auction-related payments that are neither deposits nor proceeds. But by 
doing so, the FCC is reducing revenues that statutorily must go to the 
Treasury and undermining congressional power of the purse. Indeed, if 
we accept the FCC's argument here, it is hard to imagine any limitation 
on the agency's ability to require payments for any purpose that even 
loosely can be connected to some spectrum-related goal as a condition 
of auction participation--and that simply cannot be the case. Moreover, 
if this precedent is allowed to stand, every spectrum clearing effort 
at the agency going forward will be reduced to ``let's make a deal.''
    Second, the FCC's decision is wrong on the economics. The amount of 
the FCC's acceleration payment is plucked out of thin air. Comb through 
the FCC's decision and you will not find a rational basis for it. It's 
not the result of data-driven decisionmaking. We don't try to square it 
with the court's finding in Teledesic LLC v. FCC that any voluntary 
incentive payment must be proportionate to the cost of providing 
replacement facilities. At best, it's back-of-the-envelope math. It 
looks a lot like an effort to justify backroom deals and promised 
payoffs. That's not the kind of decision a Federal agency should be 
making. That's a question more appropriately answered by Congress or 
the markets.
    Third, the FCC's decision is wrong on policy. The FCC substitutes 
its will for the will of Congress. By acting unilaterally the agency is 
not only exceeding its authority under the law, it is denying the 
legislative branch the ability to produce a statute that gets us where 
we want to go on 5G and mid-band spectrum. It also denies us all the 
ability to take the funds from the auction of these public airwaves and 
put them to broader public purpose than those contemplated in the 
existing statute.
    Working with Congress we can use the billions of dollars in 
revenues this auction could raise to do the very infrastructure 
projects this country so desperately needs.
    We could start with using this auction as a vehicle for Congress to 
repeal the provision in the Middle Class Tax Relief and Job Creation 
Act that requires the FCC to auction off T-band spectrum 1 year from 
now. This auction will jeopardize the communications of police and fire 
officials in New York, Philadelphia, Pittsburgh, Washington, Chicago, 
Dallas, Houston, Los Angeles, San Francisco, Boston, and Miami. We 
should be looking for every implement in our policy toolkit to help 
prevent this public safety mess, including support from the revenues 
associated with this spectrum auction.
    Next, we could use the billions of dollars raised in auction 
revenue to do other big things. We could do audacious things. We could 
fund a new initiative to help with rural broadband. We could fund the 
Nation's transition to next-generation 911, which is sorely needed and 
would benefit public safety in every State. Or we could use some of the 
revenues to seed a Homework Gap Trust Fund to help our Nation's 
students stuck in the digital divide. It could support wi-fi hotspots 
for loan in every school library--and virtually eliminate the Homework 
Gap overnight.
    Our C-band proceeding is important, but it is not the only place 
where the agency owes more to Americans than it has been able to 
deliver. So let me finish by highlighting a few other issues that 
deserve your attention: universal service, consumer protection, public 
safety, and competition.
                           universal service
    Our high-cost universal service program is how we ensure that all 
Americans have access to broadband. But these resources are finite. We 
need to be responsible stewards to stretch these dollars as far as 
possible and deliver on the promise of broadband opportunity for all. 
This should be our north star.
    Yet it's no secret that the FCC's broadband maps, which help us 
decide where to spend universal service funds, are inaccurate. Right 
now, if a single subscriber in a census block is identified as having 
broadband, we conclude broadband is available throughout. That's not 
right. It masks so many people who are unserved and erroneously 
suggests our broadband mission has been accomplished where we still 
have work to do. According to the FCC's flawed data, roughly 21 million 
Americans do not have access to high-speed Internet service. But one 
independent study has found that as many as 162 million people across 
the country do not use Internet service at broadband speeds.
    Nonetheless, last month the agency decided to move ahead with a 
plan to spend the vast majority of our universal service funds for the 
next 10 years--$16 billion!--without first doing anything to improve 
our maps, survey service accurately, or fix the data disaster we have 
about the state of service today. That means if your home is marked as 
served by the FCC's maps today and it is not, then for the next decade 
you are on your own. Good luck. It means millions of Americans will 
slip deeper into the digital divide.
    This is a mistake. The agency tasked with ensuring that every 
American is connected should know with precision where connectivity is 
and where it is not. We should finish the important work of fixing our 
maps before we blindly spend money based on what we all can agree is 
faulty data. We need maps before money and data before deployment. 
Anything else just does not add up.
                          consumer protection
    Robocalls are the number one complaint this agency receives. At the 
start of this administration, Americans were receiving roughly 2 
billion robocalls a month. The number now routinely reaches between 5 
and 6 billion each month. But in a recent response to Congress, the FCC 
stated it has just 12 staff dedicated primarily to robocall 
enforcement. Cobbling together time from other staff bumps that number 
up by four or five. That's it.
    That's not enough to keep pace with this growing problem. While the 
FCC has made news over a few big fines, our enforcement actions don't 
seem to be stemming the tide of these unwanted and intrusive calls. On 
average, it takes this agency 649 days to complete one robocall 
enforcement action from start to finish. In that time over 100 billion 
new robocalls might be placed. Our efforts are like trying to empty the 
ocean with a teaspoon.
    Thanks to your efforts, Congress approved the TRACED Act late last 
year, giving the FCC new tools and expanded enforcement authority to 
combat robocalls. This was welcome. Consistent with the requirements of 
the TRACED Act, the FCC announced last week that it will move ahead to 
require call authentication--after first proposing to do so more than 3 
years ago. But there's a lot more work to do. The many proceedings that 
are required under the new law will demand resources and effective 
oversight. I hope that we are up to the task.
                             public safety
    Communications technologies are essential when the unthinkable 
occurs. But on too many recent occasions when disaster has struck, our 
communications have failed. The evidence is all around us, in season 
after season of hurricanes in the south and wildfires out west. And the 
names stay with us--Maria, Irma, Harvey, Michael, Camp, Woolsey, 
Kincade--long after the water has receded, the flames have done their 
damage, and the communities affected begin the hard slog of repairing 
and replacing so much essential infrastructure.
    It has been over 2 years since the Government Accountability Office 
released a report criticizing the agency for its failure to promote 
network resiliency and urging it to do more. In response, we have 
issued four public notices seeking comment on changes. It's time to 
stop kicking this can down the road. We need enforceable rules on 
network resiliency before the next disaster strikes.
    Relatedly, the FCC has a lot more to do and needs to move a lot 
faster when it comes to cybersecurity and specifically securing 5G 
networks and supply chains. If you spin through this budget request, we 
don't commit any resources to tackling this growing problem. Moreover, 
our present efforts to remove and replace insecure equipment are not 
bold enough. Here's what we can do to fix that.
    First, we need an approach to supply chain security that considers 
how we can build secure networks that can withstand insecure equipment 
abroad--because no network stands by itself. So I believe the FCC 
should explore opportunities to unlock and diversify communications by 
supporting efforts with open radio access networks, or open RAN. This 
idea has garnered support from staff of the Department of Homeland 
Security, the Department of Commerce, the Department of State, and now 
my colleagues at the FCC. In fact, the FCC has proposed a workshop next 
month to discuss open RAN. That's good. Now we need to take it a step 
further and incorporate open RAN testbeds in our ongoing efforts to 
authorize city-wide 5G innovation zones, which exist today in New York 
and Salt Lake City. Doing this now will help ensure that this 
technology develops here, on our shores.
    Second, with the advent of 5G we are going to see billions and 
billions of new connected devices. To ensure that this growing Internet 
of Things is secure, the FCC should use its equipment authorization 
process creatively and encourage all device manufacturers to build 
security into new products. But less than 1 percent of our budget is 
set aside for new technology for our Office of Engineering and 
Technology that could help with this effort.
                              competition
    Competition benefits consumers. It is the reason why the United 
States has birthed some of the most dynamic companies in the world. But 
last year the FCC gave short shrift to competition by giving its 
blessing to the largest wireless merger in our Nation's history. Now, 
despite this agency's assurances to the contrary, we are already seeing 
press reports about layoffs and I fear consumers could see price 
increases next.
    I objected to this transaction because I think it harmed 
competition. But now that this merger is underway, it is on the FCC to 
ensure that consumers are not saddled with the consequences. That means 
the agency needs to carefully monitor wholesale access, enforce price 
commitments, and oversee network builds. But real questions remain 
about the FCC's willingness to do this work. In the year before last, 
the FCC let another company off the hook for new, competitive broadband 
networks that it agreed to deploy to get approval for its merger. So I 
hope we are up to the task this time around. Because when it comes to 
holding companies accountable for their pre-merger promises, I fear 
this FCC will look the other way.
    Consumers deserve better than this. With communications 
technologies touching every aspect of our lives, the FCC should be 
doing less to bless transactions like this and more to expand 
competition and the benefits it brings, like lower prices and greater 
innovation.
    Finally, I think it's time for the FCC to talk about coronavirus 
disruption and how technology can help. Nationwide we are going to 
explore the expansion of telework, telehealth, and tele-education. In 
the process, we are going to expose hard truths about the digital 
divide. The FCC should be convening broadband providers right now to 
prepare. It should be identifying how it can use its universal service 
powers to support connected care for quarantined patients and wi-fi 
hotspots for loan for students whose schools have shut and classes have 
migrated online.
    Chairman Kennedy, Ranking Member Coons, and Members of the 
Subcommittee, thank you once again for holding this hearing. When the 
FCC is appropriately funded and focused, there is a lot we can do to 
harness the power of communications technology for good. We can improve 
access to scarce resources, streamline the delivery of important 
services, improve quality of life, and grow the economy. And we can 
make sure that the United States leads in the next generation of 
wireless technology just like it did in the last. Thank you for 
providing me with the opportunity to offer my views. I look forward to 
any questions you may have and to working with you and your staff in 
the days ahead.

    Senator Kennedy. Thank you, Commissioner. Commissioner 
Starks. Welcome.
STATEMENT OF HON. GEOFFREY STARKS, COMMISSIONER, 
            FEDERAL COMMUNICATIONS COMMISSION
    Commissioner Starks. Thank you, Chairman Kennedy, Ranking 
Member Coons, Senator Moran, Members of the subcommittee. Thank 
you for inviting me here to view the FCC's fiscal year 2021 
budget. Today, I want to highlight three areas where the FCC 
must do more to advance the goal of ensuring that all Americans 
can access and benefit from modern communications networks, 
responding to COVID-19, rural broadband deployment, and the C-
band. First, the FCC and communication networks have an 
integral role to play in responding to coronavirus.
    In times of emergencies, Americans always pull together and 
certainly help those most in need. This will no doubt be true 
of COVID-19. With quarantines being required, as they may be 
soon in many communities, broadband connections will become 
ever more vital. Everyone in the telecommunications sector must 
step up and the time is now.
    Americans are going to need broadband in their homes to 
help telework to keep the economy strong, to help understand 
medical information and potentially connect with medical care 
via telemedicine, and to help our youngest learners continue to 
grow.
    The FCC must join immediately with efforts that bring 
broadband into homes and into communities impacted by COVID-19, 
including considering expediting waivers and experimental 
licenses that will expand our network capabilities, creating 
additional Wi-Fi capacity by temporarily authorizing the 5.9 
gigahertz band, awarding grants for capacity upgrades in 
underserved communities, and encouraging providers to offer 
low-cost options that extend basic Internet connections to 
millions of Americans and also deploy their emergency assets 
such as cell sites on wheels to unserved communities.
    The FCC must also deploy a connectivity and economic 
stimulus plan to leverage and expand the effectiveness of the 
billions of dollars that we administer through the universal 
service programs, emergency distribution of funds to rapidly 
increase the number of lendable hot spots through schools and 
libraries. We should also urgently consider temporarily 
increasing the money that lifeline provides for basic 
connectivity for low-income Americans, raising the data caps on 
lifeline and easing the enrollment burdens. This wouldn't be 
the first time that the FCC has done so in a crisis.
    In the George W. Bush era, FCC expanded the lifeline 
program to include prepaid wireless service following Hurricane 
Katrina. And as the coronavirus forces more people to stay 
home, I know that many Lifeline beneficiaries who would 
otherwise qualify based upon their participation in SNAP, may 
not be able to meet that program's working requirements. 
Keeping all SNAP beneficiaries connected to a Lifeline phone is 
a problem that the FCC can and must fix.
    Yesterday's stock market activity made clear this health 
crisis is going to have dramatic economic consequences. The 
FCC's emergency connectivity and stimulus response needs to 
start today. Second, we must maximize the impact of our 
universal service dollars so that all Americans have access to 
high-quality affordable broadband. Earlier this year, the FCC 
created a $20 billion fund for rural deployment. I grew up in 
Kansas and I support the infusion of resources for rural 
broadband, but I fear that this fund was not well designed with 
careful stewardship.
    Two major concerns. First, this fund distributes money 
based on broadband maps that we all know are absolutely 
terrible, and I remain troubled that we chose to send over $16 
billion out the door before our maps are in order. Second, in 
designing this fund, the Commission made a last hour decision 
to exclude areas that receive funding from State broadband 
subsidy programs. That impacts more than 30 States that have 
some sort of broadband program that distributes well over $1 
billion. The Commission must coordinate with these affected 
States and remedy that fundamental error.
    Third, and finally, last month's vote on the C-band put the 
interest of foreign satellite companies ahead of American 
taxpayers in my mind. Everyone now appears to agree with the 
position that Chairman Kennedy and I champion last year that 
any transfer of this spectrum must be done via a public auction 
and not in a private transaction conducted by the companies set 
to gain the most. But I fundamentally disagreed with Chairman 
Pai's approach on the C-band which is why I voted against the 
$15 billion proposal that stretches our law too far, in my 
mind, and unjustly enriches foreign satellite operators who may 
not even keep their end of this bargain.
    I fervently hope that Congress will pass legislation like 
the SMART Act, which will clarify our authority, ensure that 
auction proceeds stay in the United States, and ensure that any 
money is spent on vital needs like rural broadband deployment 
and next generation 911.
    I do look forward to your questions on these and any other 
issues. Thank you again for the opportunity to appear before 
you here on this subcommittee's work.

    [The statement follows:]
               Prepared Statement of Hon. Geoffrey Starks
    Chairman Kennedy, Ranking Member Coons, and Members of the 
subcommittee, thank you for inviting me to your review of the Federal 
Communications Commission's (FCC's) fiscal year 2021 budget. Budgets 
are, at their core, statements of priorities. At the FCC, our top 
priority should be ensuring that all Americans can access and benefit 
from modern communications networks. Today, I want to highlight three 
areas where the FCC must do more to advance that goal: responding to 
COVID-19, rural broadband deployment, and the C-Band.

    First, the FCC and communications networks have an integral role to 
play in responding to the coronavirus. In times of emergency, Americans 
always pull together and help those most in need. This is no doubt true 
of COVID-19. With social distancing and even quarantine being required, 
as they may soon be in many American communities, broadband connections 
will become even more vital. Everyone in the telecommunications sector 
must step up. The time is now. Americans are going to need broadband in 
their homes--to help them telework to keep the economy strong; to help 
them understand medical information, and potentially connect with 
medical care via telemedicine; and to help our youngest learners 
continue to grow.
    The FCC must join that effort immediately with emergency steps that 
bring broadband into homes in communities impacted by COVID-19. We 
should consider expediting waivers and experimental licenses that will 
expand network capabilities; creating additional Wi-Fi capacity by 
temporarily authorizing use of the 5.9 GHz band; awarding grants for 
capacity upgrades in underserved communities impacted by the 
coronavirus; and encouraging providers to offer low-cost program 
options that could extend a basic Internet connection for millions of 
Americans and to deploy their emergency assets, such a cell sites on 
wheels, to unserved communities.
    The FCC should also deploy a ``connectivity and economic stimulus'' 
plan to leverage and expand the effectiveness of the billions we 
administer annually in existing universal service programs. We should 
consider an emergency distribution of funds to rapidly increase the 
number of lendable hotspots available through schools and libraries. We 
should also urgently consider increasing the amount of money Lifeline--
the only Federal program designed to bring affordable communications to 
our most vulnerable Americans--provides for basic connectivity, raising 
data caps, and easing enrollment burdens. This wouldn't the first time 
the FCC has done so in a crisis--the George W. Bush-era FCC expanded 
the Lifeline program to include prepaid wireless service following 
Hurricane Katrina.
    As the coronavirus forces more people to stay home, I know many 
people in the communications sector are concerned that some Lifeline 
beneficiaries who qualify based on their participation in the 
Supplemental Nutrition Assistance Program may no longer be able to meet 
that program's work requirements. We will need to work through points 
like these that regard our larger social safety net, to be sure, but 
keeping SNAP beneficiaries connected is a problem the FCC can and must 
fix.
    By increasing access to broadband, we can help ensure that people 
who need treatment can seek it safely and those who need to be at home 
can stay there. As yesterday's stock market activity made clear, this 
health crisis may have dramatic economic consequences. By deploying 
this ``connectivity and economic stimulus,'' the FCC's funding programs 
can contribute to and amplify the stimulus packages that policymakers 
are now considering. We should start the FCC's emergency response 
today.

    Second, we must maximize the impact of our universal service 
dollars so that all Americans have access to high-quality, affordable 
broadband. Earlier this year, the FCC created a $20 billion fund for 
rural deployment, the Rural Digital Opportunity Fund. I grew up in 
Kansas, and support the infusion of resources for broadband, but I fear 
this fund was not designed with careful stewardship in mind. I have two 
major concerns. First, this fund distributes money based on broadband 
maps that we all know are terrible, and I remain troubled that we chose 
to send over $16 billion out the door before we got our maps in order. 
Second, in designing this fund, the Commission made an eleventh-hour 
decision to exclude areas that have received funding from a State 
broadband subsidy program. While the FCC has so far offered only scant 
information on how this will work, we do know this: more than 30 States 
have some kind of State broadband program, and together these programs 
distribute well over one billion dollars. Before distributing the 
funds, the Commission must coordinate with affected States and remedy 
this fundamental error.

    Finally, last month's vote on the C-Band put the interests of 
foreign satellite companies ahead of taxpayers. Everyone now appears to 
agree with the position that Chairman Kennedy and I championed last 
year: any transfer of this spectrum should be done via a public auction 
and not in a private transaction conducted by the companies with the 
most to gain. I fundamentally disagree with the Chairman's approach on 
the C-Band, which is why I voted against the nearly $15 billion 
proposal that stretches our law too far and unjustly enriches foreign 
satellite operators who may not even keep their end of this bad 
bargain. I fervently hope that Congress will pass legislation like the 
SMART Act, which will clarify our authority and ensure that most 
auction proceeds stay in the United States and are spent meeting vital 
needs like rural broadband deployment and next-generation 911.
    I look forward to your questions on these and other issues. Thank 
you again for the opportunity to raise these important issues before 
the Committee.

    Senator Kennedy. Thank you, Mr. Commissioner, and thanks to 
all of you. Not with us today is Commissioner O'Rielly, and 
that is my fault. I wanted to limit our panel to four people, 
two Republicans, and two Democrats. I didn't specifically say 
don't invite Commissioner O'Rielly. I would love to have him 
come down. He is welcome here anytime. When we have another 
hearing on the FCC, I hope he will honor us with his presence.

    [Clerk's note: Commissioner O'Rielly supplied the following 
letter appearing on the next two pages to be included in the 
hearing record.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Kennedy. The second thing I am going to say is how 
sometimes we all disagree on issues, but how impressed I am 
with this FCC. I didn't go over everybody's resume because it 
would take too long, which is a good thing. You know, the 
Chairman, Harvard College, Chicago Law School, Commissioner 
Carr, Georgetown Catholic University Law School, Commissioner 
Rosenworcel, Wesleyan and NYU Law School, Commissioner Stark's, 
Harvard College and Yale Law School. And Commissioner O'Rielly, 
we know his background. And I won't even start to talk about 
your accomplishments.

                      FOREIGN SATELLITE COMPANIES

    So I want to thank you all for what you do. I know you 
could do a little better in the private sector, but thank you 
for your service. I want to talk quickly and I am going to 
limit myself to 5 minutes and then go to my colleagues and we 
can have a second round if we need. We came that close to doing 
a private sale, private auction. I am talking about the 5 GHz 
band. Just allowing the incumbent foreign satellite companies 
to pretend that they own it, let them auction it off, and 
putting in their pocket between $60 and $80 million.
    And I know you were pushed hard to do that. I was pushed 
hard to shut up. But thank you for not doing that. The argument 
that I kept hearing, oh, Kennedy you are against 5G. No, I am 
not but the spectrum belongs to the American people. And they 
said, well, you are going to kill 5G and slow everything down. 
And you know what I kept thinking about, I know how to get 
along with Russia tomorrow and improve our relations. Just do 
whatever they tell us, whatever Putin tells us we will agree 
to, and then we will have great relations. But I want to thank 
you for standing tall and doing a public auction.

   FOREIGN SATELLITE COMPANIES C-BAND RELOCATION COSTS AND INCENTIVE 
                                PAYMENTS

    Now the good news is we are going to do the public auction 
and you are going to do it this year. I think December 8. You 
have decided to incent, I am trying to look for a neutral word, 
incent the foreign satellite companies to cooperate, and in my 
understanding, you are going to give them between $3.3 billion 
and $5.2 billion for relocation costs to move to another part 
of the C-band and you are going to give them $9.7 billion as 
incentive payments to do what they required to do anyway. That 
is the way I see it. Explain to me how you came up with $9.7 
billion. Mr. Chairman.
    Chairman Pai. Thank you for the question, Chairman Kennedy. 
And first to let me express my gratitude and I am sure the 
gratitude of my colleagues for your kind words about both our 
credentials and our public service. The details of the 
accelerated relocation payments are outlined from paragraphs 
211 to 254 of the Commission's order from pages 88 to 103.
    Contrary to my colleague's suggestion, the math is 
literally there in paragraph 217 with the formula. But in 
essence what we tried to do was estimate the amount that 
overlay licensees would be willing to pay for quicker clearing 
of the C-band absent to the holdout and free-rider problems 
that would otherwise attend the clearing.
    So what we did was to estimate the time value of that 
spectrum, essentially. If you had a profit stream yielded from 
quicker freeing of that----
    Senator Kennedy. Let me stop you, Mr. Chairman. You tried 
to estimate what, the people who are going to bid on this 5G, 
what it was worth to them to have the incumbents, the foreign 
satellite companies get out. Is that right?
    Chairman Pai. To clear quicker, correct.
    Senator Kennedy. Okay. Did you sit down with the foreign 
satellite companies and negotiate this?
    Chairman Pai. We sat down with everybody to hear their 
views on----

       MEETINGS AND NEGOTIATIONS WITH FOREIGN SATELLITE COMPANIES

    Senator Kennedy. Yes, but did you sit down with the foreign 
satellite companies and say, okay, let's talk turkey here and 
negotiate?
    Chairman Pai. We heard their views on what that should be 
but we rejected it, mostly.
    Senator Kennedy. But did you have private meetings with 
them to negotiate the $9.7 billion?
    Chairman Pai. We had--every meeting we had was documented 
in ex parte following----
    Senator Kennedy. I am not saying you did anything wrong. I 
am just saying, did you have private meetings to negotiate the 
$9.7 billion?
    Chairman Pai. Not to negotiate the specific number and such 
but we did sit down with them and discuss what the numbers 
should be.
    Senator Kennedy. Okay, who did you sit down with?
    Chairman Pai. I have--I mean they are documented in the ex 
parte. I can't remember off the top of my head, but the C-band 
alliance companies, Intelsat, Telesat, Eutelsat were in some of 
the meetings, SES----
    Senator Kennedy. Did they put a number on the table? Did 
they come in and say, okay, we are incumbents, we want x number 
of dollars? What was their opening offer?
    Chairman Pai. The opening offer, as I recall, was a 50--
well, first they said, we want do the private sale, of course, 
but after we announced the public auction, they came in with a 
proposal for a 50 percent split.
    Senator Kennedy. And you countered what?
    Chairman Pai. We countered with saying, look, we don't 
believe that a 50 percent split is appropriate. What we are 
trying to do is tailor the accelerated relocation payments to 
the nature of the work that is done----
    Senator Kennedy. I am trying to understand the 
negotiations. They countered 50 percent of the auction 
proceeds. You said, when donkeys fly. I ain't doing it. Okay.
    Chairman Pai. Not in so many words.
    Senator Kennedy. Right. You were more articulate. What did 
you counter with?
    Chairman Pai. We ultimately countered with $9.7 billion. We 
said, look, we believe that this is the correct amount that 
reflects the amount that overlay licensees would be willing to 
pay.
    Senator Kennedy. Okay. I am going to hush and call on 
Senator Coons. Y'all settle in, we are going to be here a while 
because I got a bunch of questions. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. To continue along 
what I think is this line of questioning, hopefully, hopefully, 
will it work? So the central question behind offering a $9.7 
billion incentive essentially for relocation is, are there 
clear and binding commitments from these incumbents that will 
prevent litigation over an argument advanced by at least one of 
your fellow Commissioners that this decision exceeds the 
authority of the FCC?
    So my impression of your decision, of the action of the FCC 
as a whole, is that you are providing an incentive that is 
based on the time value of earlier release of the spectrum. 
Tell me how certain we are that it will work and that they will 
release the spectrum in a timely fashion, not pursue 
litigation, and promptly clear up this spectrum because the 
race to 5G is the key, both strategic and economic issue. Will 
it work? How certain are we? And then I will seek comment or 
rebuttal from your colleagues.

           LEGAL FRAMEWORK AND RELOCATION PAYMENT CONDITIONS

    Chairman Pai. So I discern two strands to your question. 
First, will it work. Second, the legal framework. With respect 
to will it work, we believe it will. We believe the accelerated 
relocation payments we are offering the satellite companies, 
and they will have to make that election as to whether to 
accept those offers by May 29 of this year, will provide them a 
strong----
    Senator Coons. And the payments are conditional? They only 
receive them once they move?
    Chairman Pai. They only receive them after phase one if 
they complete the clearing of 100 megahertz, and after phase 
two, if they complete the clearing of the additional 280 
megahertz of spectrum. And there are very specific guidelines 
as to what steps they have to take in order to clear, what 
clearing actually means, etcetera. The second question is very 
important. What is the legal framework for doing this?

     SECTION 316 AND CONGRESS'S BROAD AUTHORITY TO MODIFY LICENSES

    Under Section 316, Congress has granted us broad authority 
to modify licenses. Starting in 1992, the Commission, through 
its emerging technologies framework, started a framework under 
which we encouraged companies wanting to essentially have 
overlaid licensees to compensate the incumbents for the cost of 
relocation and include specifically accelerated relocation 
payments.
    Under its Community Television decision, the DC Circuit 
affirmed that we can do so, so long as the incumbents are 
providing substantially the same service. Under the Teledesic 
ruling, the court specifically approved the FCC saying that 
they could increase the amount of payments to the incumbents to 
accommodate the nature of the disruption. Also under the APCO 
case in particular. There are many other precedents.

           ACCELERATED RELOCATION PAYMENTS VERSUS LITIGATION

    Every single decision we made in terms of the C-band 
squares with section 316 and the emerging technologies 
framework. And so, the other question, Senator with all due 
respect, is what is the alternative? My colleagues' alternative 
would have a slowdown, in fact stop, until Congress legislates 
whenever that is, or put out some offer on the table. 
Presumably they disagree with accelerated relocation payments 
as a concept, which would guarantee litigation not just from 
the small satellite operators that don't have service in the 
United States and are unlikely to sue anyway, but from the very 
companies that are critical to clearing out the spectrum 
quickly.
    If you want them to participate, you have to offer 
accelerated relocation payments to compensate them for the 
filtering, for the satellite launch, and the other work that is 
necessary to do. And I have never heard an explanation as to 
how they propose to get from A to B without substantial 
litigation and delay.
    Senator Coons. Perhaps I can help facilitate that 
conversation?
    Chairman Pai. I would love to hear it.
    Senator Coons. Commissioner.

  DEVELOPING A FRAMEWORK TO INCENTIVIZE THE REPURPOSING OF COMMERCIAL 
                    SPECTRUM WITH HELP FROM CONGRESS

    Commissioner Rosenworcel. Alright. Thank you, Senator. You 
asked what we know with certainty. I know two things with 
certainty. First, under the framework just passed by the FCC, 
we are headed fast to litigation. We are going to the courts. 
It is going to slow things down. The second thing I know with 
certainty is that if Congress helps us here, we will develop a 
framework to incentivize the repurposing of commercial spectrum 
in a way that is straight forward and effective. We need your 
assistance with that and the sooner the better.
    Senator Coons. And what confidence do you have that that 
legislation is prepared, is moving, and is clearable in a less 
than geologic timeframe.
    Commissioner Rosenworcel. Well, I do. Here is why. I think 
we can do a lot better than glacial. Here is why.
    Senator Coons. I said geologic.
    [Laughter.]

                     REPURPOSING BROADCAST SPECTRUM

    Commissioner Rosenworcel. In 2012, Congress did something 
just like this in the Middle Class Tax Relief and Job Creation 
Act. It repurposed broadcast spectrum and took the revenues and 
used it to set up a First Responder network. And it came up 
with a theory of price discovery. This was incredibly 
effective. It was a model for how we should repurpose airwaves 
that have been over allocated for old uses and we should do it 
again.
    Senator Coons. So I am almost out of time. Let me be--let 
me just be clear. Mr. Chairman, if Congress were prepared to 
quickly legislate in a way that directed this result and then 
took some of these proceeds and repurposed them to things we 
could all agree on, this is a big if, reducing digital divide, 
providing more support for First Responders, being part of the 
response to COVID-19, if that happened, would that be a more 
desirable outcome in terms of the predictability and the 
reduction of litigation risk?
    Chairman Pai. Two points, Senator. First, I have said from 
the beginning that I would welcome Congress legislating on the 
question of what to do with the proceeds that go to the 
Treasury. When I was a Commissioner. I specifically proposed a 
rural dividend to allocate a percentage of auction proceeds to 
go towards rural broadband back in 2016.

    COMPLEX LEGISLATION AND FORFEITURE OF AMERICAN LEADERSHIP IN 5G

    But second, in the political reality that we are in, the 
notion that we should sit around and wait for Congress to come 
up with complex legislation on a topic that divides virtually 
every sector of the industry is crazy, and I for one am not 
going to forfeit American leadership in 5G on the hope that 
political actors from across the spectrum with differing 
incentives come together in passing a bill that is unlikely to 
succeed.
    Senator Coons. I would like to believe--I will wrap up. I 
would like to believe, Mr. Chairman that at least the Chairman 
and I could work this out relatively quickly. I take no offense 
at your observation that Congress legislates slowly and 
infrequently. Thank you, Mr. Chairman. I have got lots more to 
ask.
    Commissioner Starks. If I could chime in very quickly.
    Senator Coons. Yes.

 THE RISK OF STRONG LITIGATION OVER MANDATORY PAYMENTS UNDER TELEDESIC

    Commissioner Starks. Because I do share many of the same 
concerns of Commissioner Rosenworcel. The authority for 
mandatory payments under Teledesic is not in accord with 
Section 309J. And so I very much believe that there is a strong 
litigation risk here. Voluntary payments that are relocation 
based is only what is required under our current precedent and 
under our current authority.
    And I do know there are already whispers that the parties 
that have already negotiated, in particular Intelsat and SES, 
have already had a divorce under their alliance. And so I do 
think there is significant litigation risk, and that either we 
needed to proceed based upon our current precedent or we do 
need to have congressional action.
    Senator Kennedy. Senator Moran.
    Senator Moran. Well Chairman, I was operating under the 
assumption this was an appropriation subcommittee budget 
hearing, despite your admonition.
    Senator Kennedy. It is whatever you wish it to be.
    [Laughter.]
    Senator Moran. You are kind to say that.
    Senator Kennedy. You can do whatever you want.
    Senator Moran. I am very interested. I used to be the 
Ranking Member of this subcommittee, and for the very first 
time in a decade, we asked the FCC to come testify. And I 
appreciate that. That has become pretty much an annual event. 
It hadn't happened for a long time since prior to 2011.
    Senator Kennedy. We will probably do another meeting.
    Senator Moran. It sounds like it is going to become common, 
maybe twice or more every season. Let me, I am interested in 
this topic, and it seems to me that both arguments here are 
about how to expeditiously get us to the point that we want to 
be, I don't necessarily know why this is a Republican or 
Democrat issue and I hope it is not. I hope--I like Commissions 
in which we cannot determine who nominated the person who 
serves.
    It doesn't seem to me that this Commission is getting back 
to the days that I despise in which the Commission could not 
get along at all. And there is nothing wrong with having 
disagreement. I generally think that Commissioner Pai has been 
thoughtful. The goal of finding this solution expeditiously and 
responsibly seems to be shared by all.
    The conversation about litigation, I can't tell who has the 
best argument about where litigation is most likely to result. 
And knowing lawyers and you all being lawyers, my guess is all 
the circumstances result in litigation. The question is, the 
challenge is, and Senator Coons and Senator Kennedy and I can 
certainly agree, on the difficulty of getting Congress to 
legislate on something that we understand and is simplified, 
this would be a tremendous challenge for us to make decisions 
and I regret saying that. It really ought to be more 
congressional involvement not less.

   GETTING 5G TO AMERICA QUICKLY AND REDUCING THE RISK OF LITIGATION

    But Commissioner Pai, Chairman Pai, I have sponsored 
legislation, the 5G Spectrum Act, with Senator Wicker and 
Senator Thune. This is--it similarly addresses the issue as the 
Commission is doing to date, and so I want to move on to 
something that matters to me as well, but I am interested in 
continuing the conversation that the Chairman is pursuing on 
how best we accomplish the goal of getting 5G to America as 
quickly as possible and reducing the risk of litigation that 
would delay that.

                                  MAPS

    I want to pick up on what the two Commissioners on the 
right side of the table, right to me, talked about it. It is 
the maps. The maps have been an issue of mine since I first saw 
them. I can see them as I drive my State and recognize how 
flawed they are. I think it is a mistake to make decisions with 
flawed data. I worry that once the money is spent in the wrong 
place, we have invested incorrectly, then we are looking for 
more money because we still have the problem we were intending 
to solve.

                             5G FUND AND 4G

    I want to focus my comments on this data question, at least 
this morning, on the issue of--well, first of all I would say 
Congress has legislated and I would expect maybe that this 
month the Broadband Data Act will become law and hopefully that 
is a process by which the maps are fixed. I want to talk a 
moment though about the 5G fund. The Commission announced that 
5G fund would replace the mobility fund.
    This is an opportunity, I think, to collect more reliable 
data, ultimately to succeed where the mobility fund failed, and 
to meet the mandate for the better data found in the Broadband 
Data Act. Let me, I suppose, address this to the Chairman. Can 
I have a commitment to updating the underlying coverage data 
for the unsubscribed 4G LTE mobile service before determining 
the eligible areas for the new 5G fund?
    Chairman Pai. Senator, thank you for the question. We are 
going to be looking at a notice of proposed rulemaking with 
respect to the 5G fund that tees up all of the questions you 
have identified with respect to determining eligible areas, 
allocating funding accordingly, and the like.

                            4G RELATED MAPS

    At the same time, we are always looking to update the 4G 
related maps that we have. And so the two are separate but 
important initiatives to make sure that we understand where 
coverage is and where it is not, and the reason why we scrapped 
the Mobility Fund II, which of course as you know, targeted 4G. 
It is precisely the reason. It is one thing to have coverage in 
Olathe and Overland Park, but by the time you get to Iola 
Frontenac and Parsons, you realize that map is not necessarily 
accurate.
    So we didn't want to build on top of that flawed structure. 
We wanted to create a new structure that was far more accurate 
and granular.
    Senator Moran. Well, my colleagues and I sent to you and 
others a letter yesterday on this topic asking that you work 
with us in getting the--to address our concerns related to 5G 
fund. Let me, Mr. Chairman, if I can ask the Commissioners, 
both Commissioner Starks and Commissioner Rosenworcel talked 
about this issue, what do I need to know about where we are on 
flawed data and how it is being used?

                                  MAPS

    Commissioner Rosenworcel. Thank you for the question, 
Senator. You are absolutely right. We need maps before money 
and data before deployment. The American public would be 
shocked to find that we are giving out billions and billions of 
dollars to improve broadband and to improve wireless services 
without having any grasp of where service is and is not in this 
country. You can't manage problems you don't accurately measure 
and it is time for the FCC's measurement activities to improve. 
They need to come first.
    Senator Moran. And are we doing that?
    Commissioner Rosenworcel. No, candidly, we are not. Right 
now we are about to give out $16 billion for broadband without 
first fixing our maps. We have it exactly backwards. We are 
doing it in what looks a lot more like a broadband publicity 
stunt than true policy. If it was true policy, we would go and 
fix the maps, you would take those maps back to everyone in 
your States and you would ask the public to challenge them so 
we know with accuracy and granularity where service is and is 
not. We are not doing that now.
    Senator Moran. Chairman, I wouldn't mind hearing from 
Commissioner Carr but my time is well spent.
    Senator Kennedy. Sure.
    Commissioner Carr. Thank you, sir. I think, you know, maps 
before for money has some alliteration to it, but it is not 
good policy. Here is why. We know already where there is not 
coverage. So what we have done is a two-phase approach. Phase 
one, those areas where we know where our maps are right but 
there is no service, let's get money there right now. Not 
tomorrow, not next week, because connection makes a huge 
difference in someone's life.
    For those areas where we our maps aren't good at 
differentiating where there is service and where there is not, 
let's do a deep dive. Let's fix that problem, which is what we 
are doing, and that is going to be the phase two process. But 
where we know where there is good coverage with the maps today, 
let's get moving.
    I am from Virginia. I can drive there today with no map. I 
have never been a Parsons, Kansas. I would have to wait for a 
map to go there, but that doesn't mean we shouldn't go where we 
already have maps that are accurate.
    Commissioner Starks. Senator, if I could jump it. I know 
that you asked to hear my opinion as well, if I may. In 
particular based upon the $16 out of $20 billion is going to go 
out the door under what we know are 477 maps that are deeply 
flawed. And so I do have grave concerns that we are going to 
get a super majority of the money out the door based upon data 
that we know is flawed.
    And the real fundamental issue there is that if one 
household is served on a census block, then that whole area is 
considered served. The second problem that I really see with 
477 data is that we asked where could you serve as a provider 
rather than where do you serve right now. We need to know 
actually where people serve. And so----
    Senator Kennedy. Could you wrap up for me?
    Commissioner Starks. Yes, and so I do also have serious 
concerns about a significant amount of money going out the door 
based upon that data.
    Senator Kennedy. Okay. Good questions, good answers. 
Senator Van Hollen.
    [Laughter.]
    Senator Van Hollen. Thank you, Mr. Chair. I would be happy 
to become a member of the Commission. And thank you, Senator 
Moran, for raising that issue, and thank you all for your 
responses, but as Commissioner Starks pointed out, my 
understanding is that if you have a census block, right, and if 
one home and that census block is served, the entire census 
block is considered served. Is that correct?
    Commissioner Starks. Yes, sir.
    Senator Van Hollen. Okay. And the other concern I have is 
States being penalized for having taken their own actions to 
try to expand broadband to certain areas. Commissioner Starks 
joined a group of us in Western, Maryland, and I want to thank 
you for that. And one of the big things we heard was the fact 
that the maps were off. So I look forward to continuing that 
conversation. I had not planned to lead with that but I am glad 
that it is covered.

              HOMEWORK GAP AND THE HOMEWORK GAP TRUST FUND

    I also, I wanted to raise the issue of the digital divide 
and the homework gap, and I want to thank Commissioner 
Rosenworcel. Thank you for your work in this space. And all of 
you, I know, have spoken to it. I introduced a piece of 
legislation to establish a homework gap trust fund taking some 
of the proceeds from the 5G auctions, dedicating some of those 
to immediately helping close this homework gap. Obviously, the 
coronavirus has further highlighted that gap. You have some 
schools around the country that have closed. They are trying to 
arrange sort of distance learning and homework over the 
Internet.
    Obviously those students who are not connected are put at a 
huge disadvantage and then there are additional students who 
simply don't have a computer at home. So if you could speak to 
that a little bit, Commissioner Rosenworcel, and others as well 
about the urgency of tackling this issue.
    And then I know Chairman Pai, I believe that Senator 
Cantwell sent you a letter on Thursday about your ability to 
potentially deploy emergency, use emergency authority to 
address this issue as well. If we could start, Commissioners 
Rosenworcel.
    Commissioner Rosenworcel. Sure. You are absolutely right 
about the homework gap because when I was growing up, I needed 
a paper, a pencil, and my brother leaving me alone to do my 
homework. And you know, gone are the days. Kids today need 
Internet access and the Senate joint economic committee says 
that 12 million students in this country do not have the 
Internet access they need for nightly schoolwork. They fall 
into the homework gap and that is a crisis.
    But now with the coronavirus, we have real duties to figure 
out how to help get those kids online, because when their 
school shutdown and classes migrate online, they are at the 
greatest risk of being left behind. So your bill provides a 
framework for helping assist those students and they are 
everywhere and we need to do it.
    Senator Van Hollen. Thank you. If I could just get the 
thoughts of other panelists really quickly on the bill and 
supporting the use of some of the proceeds from 5G sale for 
this specific purpose. And quickly, you know, there are some 
things we can do right away by getting creating hot spots as we 
continue to try to build out the whole system for high-speed 
Internet.
    Commissioner Carr. Thank you, Senator. And I thank you for 
your leadership on this issue. I would support that type of 
effort. I think this discussion highlights why we struck the 
right balance with the maps.
    To my colleagues' point, if we have a school in a census 
block that our maps today say are unserved, it is unserved and 
we should move quickly whether it is through the Rural Digital 
Opportunity Fund (RDOF) or through this bill to move funding to 
that unserved area. The challenge is we have areas that we are 
not sure if they are unserved or not. My colleagues' approach 
was a--to say, those people that we know aren't served today 
shouldn't get new broadband for telehealth, shouldn't get it 
for teleeducation until we resolve this complicated issue over 
here. That is plainly the wrong approach. So I am glad that we 
haven't gone down that path.

                             WI-FI HOTSPOTS

    Senator Van Hollen. Alright. So they are two separate 
issues here, right? I think one is we want to, as rapidly as 
possible, build out high-speed Internet and that goes to how we 
deploy the $20 billion and when, but there is an immediate 
issue that we can address through creation of hotspot access, 
right? I mean, it doesn't necessarily cover every student if 
they can't get even hotspot access, but the hotspot can 
immediately address these concerns. Is that right?
    Commissioner Rosenworcel. That is absolutely right. I have 
been to schools where they have Wi-Fi hotspots for loan for 
students whose families can't afford the broadband they need 
for Internet access for homework. It changes their lives. And 
with your program, we could have loaner programs in every 
school in this country and we would get rid of the homework gap 
virtually overnight.
    Commissioner Starks. I will be brief, Senator. I very much 
support your idea, your legislation. I do think making sure 
that C-band money is earmarked for homework gap is a good idea. 
But with the coronavirus, I think it is going to be important 
that the FCC and the communications networks really support 
everyday Americans. There should be no American that is cut off 
from connectivity because of cost. And so it is going to be 
really important that we lean into getting hotspots, dealing 
with Lifeline, making sure that there are low cost options for 
Americans.
    Senator Van Hollen. Got it. I appreciate it. Thank you for 
all your support. Maybe--did hear, you, Mr. Chairman, say there 
will be a second round of questions or? Aright. Thank you.
    Senator Kennedy. Senator Lankford.

                        GETTING NEW UPDATED MAPS

    Senator Lankford. Thank you, Mr. Chairman. Thank you all 
for your service. Let's continue on this conversation about 
maps for just a moment. Getting updated maps would take how 
long?
    Chairman Pai. Senator, it is part of the digital 
opportunity data collection, which was adopted last August. We 
have been updating the framework to get more granular 
information with respect to the maps. In addition, we have been 
updating our overall framework for 5G as we mentioned.
    Senator Lankford. So getting new maps would take how long?
    Chairman Pai. Well that is one of the things we are working 
with the staff to determine. I can't give you a specific----
    Senator Lankford. Is it 6 months? Is it 2 years? Is it 5 
years? The mobility fund was a start, research it, prepare it, 
fail, cancel it, start all over again, be able to go from 
there. How long would it take to get maps?
    Chairman Pai. I think it is more an issue of months than of 
years.
    Senator Lankford. Okay, do you agree?
    Commissioner Rosenworcel. Absolutely. We need to make it a 
priority----
    Senator Lankford. No, I understand. I am talking about the 
time. How long do you think it would take?
    Commissioner Rosenworcel. I think between 3 and 6 months we 
could radically improve the State of our maps.
    Senator Lankford. And the maps would be done in 3 to 6 
months nationwide?
    Commissioner Rosenworcel. I think they will be done but 
they are a continually evolving product.
    Senator Lankford. Right, I understand. But some of the 
conversation right now is about, do we start before we have 
everything in place? If your statement is we have got to have 
everything in place when we start, will we be completely done 
in 3 to 6 months?
    Commissioner Rosenworcel. I believe we can be completely 
done within 3 to 6 months and that would be an incredible 
improvement over the maps we have today, and we distribute the 
dollar smarter if we did that.
    Senator Lankford. So the challenges for rural areas in my 
State and everybody else's State is trying to be able to get to 
the point that we have action here because we waited on the 
mobility fund and waited and waited and waited. Part of my 
challenge is companies that clearly put in false information, 
clearly, so they have more coverage. I don't know that any of 
them been fined at this point for giving blatantly false 
information to you. And I think there should be some 
accountability in that process, if they gave blatant false 
information to you, that there should be some accountability to 
those providers that gave false maps.

                  CONTRABAND CELL PHONES AND THE CTIA

    But then to also say for the areas that we know we don't 
have service, which we can all drive through our States and 
know it, I don't see a reason why we wouldn't want to start 
engaging and try to actually get to finalize maps in the days 
ahead. Let me back up to the song that I have sung to every one 
of you at some point and that is about contraband cell phones.
    Whether we met in the office to be able to talk about it 
there, or I think I randomly caught you one day on the train to 
be able to talk about it. This issue of contraband cell phones 
is a nationwide issue. 2013, there was a notice of proposed 
rulemaking. 2017, there was an order. There has yet to been a 
single proposal out there that the CTIA--The Wireless 
Association has ever not opposed. So whatever discussion is out 
there on any kind of contraband cellphone, CTIA is going to say 
no, block it, we don't any--we want contraband cell phones to 
be out there.
    As far as I can tell, they have never supported any 
proposal to stop contraband cell phones. We have riots 
happening in prisons, coordinated riots that happen in my 
State, with multiple prison simultaneously having a riot 
because of contraband cell phones and multiple prisons and the 
gangs there, actually taking it out. Literally people are dying 
because we have got CTIA and other organizations blocking the 
work every time we actually take on the work on this issue.

              PRISON STALKING FROM CONTRABAND CELL PHONES

    We have individuals in a prison that are in a prison 
stalking individuals that they are in prison for stalking, 
still stalking them from a contraband cell phone. I can't begin 
to explain how important this is to be able to take this on and 
now we are approaching a decade of talking about it. I am 
trying to figure out how we actually get to a resolution.
    So in a couple things, Chairman Pai, I have invited you. 
You came by my office this week. Thank you for doing that. I 
invited you to come to Oklahoma. You have been Oklahoma 
multiple times before to be able to come into a prison. I would 
welcome any of you to be able to come and to be able to 
actually see what is happening on the ground in this, but we 
have got to figure out how to be able to move.
    Now, there is a lot of things that the previous orders that 
y'all put out have recommended or have tried to get comments 
on, things like beaconing, trying to have quiet zones, find 
areas of geolocation exclusion. All of those things have been 
put out for comment, but I don't know when we actually take 
action, what part is ours and what part is yours, and how we 
actually solve this. Chairman Pai, you want to jump in on that?
    Chairman Pai. Sure, Senator. I share your frustration as we 
discussed. I have been to multiple correctional facilities 
around this country and including Jess Dunn Correctional Center 
in Taft, Oklahoma. I have met with correctional officers who 
have been shot, who have been stabbed. They worry when they 
turn on their car in the driveway in the morning because they 
know that the most important piece of contraband for an inmate 
is a cell phone, more than drugs, more than money.
    And that is part of the reason why I flagged this issue as 
a Commissioner and why I have been happy to work with you and 
others on this as the Chairman. What we have done is to push 
CTIA to enter into agreements with manage access service 
related operators, and my understanding is that the staff is 
preparing a report which we would be happy to share with you. 
But I share your frustration. This is the public safety issue.
    Most people, when they learn about it, would be horrified 
to learn that this is what is going on in prisons, but there is 
a massive spillover effect to witnesses, to judges, to 
prosecutors, to average citizens that needs to be addressed and 
it needs to be addressed now.
    Senator Lankford. Well, my fear is that the cell phone 
companies are playing good cop, bad cop with me, that when I 
talk to leadership in the cell phone companies are all like, 
yes, we want to address this, and then within 2 weeks CTIA 
comes out and says, no, this is all a terrible idea.
    And so we have got to figure out how to be able to solve 
this. There are solutions that are out there. So thanks for 
your engagement. I would continue to encourage all of us. This 
is not a partisan issue. We have got to figure out how to be 
able to solve this and actually how to be able to move on it. 
Mr. Chairman, thank you.

    FIXING THE PROBLEM WITH CONTRABAND CELL PHONES IN STATE PRISONS

    Senator Kennedy. Does the FCC, notwithstanding what our 
friends in the cell phone industry say, do you have the 
authority just to fix this yourselves, the problem that Senator 
Lankford is talking about?
    Chairman Pai. Mr. Chairman, part of the issue is that 
current law severely restricts our ability to authorize certain 
types of applications and services that would address the issue 
that Senator Lankford----
    Senator Kennedy. So you need a bill passed?
    Chairman Pai. Pardon me?
    Senator Kennedy. You need a bill passed?
    Chairman Pai. Legislation would have to be passed in order 
to have a full range of options on the table.
    Senator Kennedy. Do you agree with that, Senator Lankford?
    Senator Lankford. Mr. Chairman, there are options that are 
out there cell phone companies could take right now, 
geolocation banning, all kinds of different options that are 
out there that cell phone companies could do currently to be 
able to work with State prisons.
    For a full fix, as you mentioned before, to be able to do 
jamming devices, micro jamming, all of those things, that would 
have to have a legislative fix. Every time we talk about a 
legislative fix, CTIA comes to this Hill, bombards Commerce 
Committee, explains to them what a terrible idea this is, and 
everyone backs off in the confusion.
    Senator Kennedy. Is there anything, Senator, is there 
anything in your judgment that the FCC can do right now without 
passing a bill to help with this?

                       TESTING IN FEDERAL PRISONS

    Senator Lankford. Getting actually the study completed that 
everyone's on board on and to be able to get the details of it 
to be able to say here is a set of solutions that cell phone 
companies can do right now. Because Federal prisons, as Senator 
Boozman was saying, Federal prisons are allowed to do jamming, 
just State prisons are not.
    Most Federal prisons are also not doing jamming, though 
there is some testing happening in Federal prisons. So to go 
from Federal prisons actually doing it, getting the devices, 
putting them in place, being the precursor to State prisons, 
being able to do it, would be exceptionally helpful.
    But getting all those parameters out and getting them on 
board to do a Federal prison and to say, this is approved in 
the urban, this is approved in the rural, and then the States 
can actually----
    Senator Kennedy. Yes. They need to finish the study, is 
that----
    Senator Lankford. They need to finish the study, have 
everybody on board on it, and then----
    Chairman Pai. And that is report that I was referring.
    Senator Kennedy. Yes, when can you finish the report?
    Chairman Pai. The staff told me they are working on it. We 
should be able to get it done in short order. I don't have 
specifics----
    Senator Kennedy. When can you finish the report?
    Chairman Pai. I can check with them and give you that 
specific timeframe. I know it is in the final stages.
    Senator Kennedy. By June 1?
    Chairman Pai. Again, sir, I don't want to----
    Senator Kennedy. Is there someone in the audience working 
on the report?
    [No response.]
    Chairman Pai. Our career staff is back at the office, I 
suspect.
    Senator Kennedy. Okay. Would you ask them to get it done by 
June 1?
    Chairman Pai. I will. I will see if that is doable--I would 
anticipate it would be but I'll check with them.

    [Clerk's note: The FCC submitted the Report to the 
Committee on April 27, 2020.]

    Senator Kennedy. Okay. Or May 1 even.
    [Laughter.]
    Chairman Pai. Accelerated relocation payments would be 
helpful in that regard.
    Senator Kennedy. Senator Lankford is right, we have got to 
do something about this, and when we do our budget, we need to 
put something in to try to address it. Governor, Senator 
Manchin.
    Senator Manchin. Thank you, Mr. Chairman. Chairman Pai, in 
December 2018, you put the brakes on $4.5 billion mobility fund 
program because of questions about the accuracy of the maps. 
And Senator Lankford just went into that in detail. You said 
and I quote, ``it is critical that we know where the access is 
and where it is not.

             RURAL DIGITAL OPPORTUNITY FUND AND THE 5G FUND

    ''We must ensure that the data is accurate before we 
proceed.'' But over the course of the last year, you seem to 
have had a change of heart. And the reason I say that, you now 
want to distribute $16 billion through the Rural Digital 
Opportunity Fund and $9.5 billion through the 5G fund as soon 
as possible because you say there is simply no excuse for the 
Commission to wait.
    If you can't get the $4 billion out, how the heck you want 
to get $9.5 billion out without having anything more accurate?
    Chairman Pai. Senator, a few things. First, those are two 
different funds. We are talking to the mobility fund which 
was----
    Senator Manchin. Well the maps are wrong on both.

                 UNSERVED LOCATIONS ACROSS THE COUNTRY

    Chairman Pai. Actually, Senator, they are not with respect 
to phase one of the Rural Digital Opportunity Fund. We know 
there are millions of locations across this country, everybody 
agrees no matter what map you have consulted, that are 
unserved. We know there are 230,000 estimated locations in West 
Virginia alone that are unserved.
    We know that those people deserve digital opportunity just 
like anybody else, and so the suggestion is that we put off 
phase one or wait until the maps are accurate for different 
areas is sort of like saying we are not going to treat a sick 
patient unless we know every other person in the community who 
could possibly be sick. We know that these people in West 
Virginia and around the country do not have broadband. We know 
that for a fact. To make them wait until other areas----

                                  MAPS

    Senator Manchin. Well, you didn't know that before because 
in my State, I can tell you, your maps were showing that they 
did----
    Chairman Pai. That is the mobility side, Senator.
    Senator Manchin. That is the mobility side but no 
difference, I mean from the standpoint.
    Chairman Pai. No, on the fixed broadband side, Senator, we 
know every map shows that there are parts of West Virginia that 
are unserved----
    Senator Manchin. Let me ask Commissioner Rosenworcel on 
this, you came to the State and I appreciate very much, you saw 
we never even had 1G.
    Commissioner Rosenworcel. I did.
    Senator Manchin. Okay. You saw how horrible it was. How do 
rural areas, whether it be West Virginia, whether it be 
Oklahoma, wherever, would everyone gets served?

                  BUSINESSES LIMITED WITH NO BROADBAND

    Commissioner Rosenworcel. You know, I remember being in 
Romney with you and talking to the folks that had assembled in 
the town hall. And they were worried about the futures of their 
communities, they were upset about how business was going to be 
limited because they didn't have broadband, and they were angry 
that the FCC maps showed that they did. And it demonstrated to 
me in incredible clarity that our maps are wrong, and if we 
give away so many dollars right now without fixing them first, 
we are going to leave communities, like the one I visited with 
you in West Virginia, behind.
    Senator Manchin. When we are talking about mobility fund, 
we know that the maps are wrong there. Now, we are talking 
about the Rural Digital Opportunity Fund and we are saying they 
are right?
    Commissioner Rosenworcel. Yes, they are just wrong across 
the board. I mean, that is what I learned in my trip with you. 
So many people in West Virginia saying that the FCC said they 
had service when they do not, so let's fix it.
    Senator Manchin. That is $16 billion ready to go out the 
door.
    Commissioner Rosenworcel. Let's fix it first.
    Senator Manchin. I know, but $16 billion, Chairman Pai, you 
are ready to go out the door, and he said everything is ready 
to go. And I am just saying and pure simple language, this is 
pure politics. You have got an election coming up. I want to 
make sure I don't get left behind, my State, and other States 
want to make sure they don't get left behind, but we shouldn't 
let politics get in the way of doing it right. If the maps 
aren't done and they are asking you for times, the chairman 
says, May, June, whenever, we just want to know before you let 
money start going out.

          SERVING UNSERVED LOCATIONS VERSUS SOLVING WRONG MAPS

    Chairman Pai. Senator again, there are millions of 
locations we know for a fact are unserved based on any map that 
you consult. Waiting to serve those areas until we solve the 
maps in completely different areas is irresponsible. Now, if my 
colleague wants to propose formally making those millions of 
Americans wait, that is perfectly fine. I would be happy to 
work with them of if she wants to go out with you to West 
Virginia, that is fine but----
    Senator Manchin. I think she is saying to do the job.
    Chairman Pai. That is exactly what we are doing, Senator. 
We know there are areas that are unserved, completely unserved. 
I do not want those Americans to wait for digital opportunity.
    Senator Manchin. You have those--do you have a list of 
those locations where you plan on putting money in?
    Chairman Pai. Yes, we do, Senator.
    Senator Manchin. Can we get the list of that? Can we see 
where you are going to put this $9 or $16 billion? It could go 
up to $25 billion with the 5G fund.
    Chairman Pai. Senator, staff is developing that list and we 
would be happy to get it to you.
    Senator Manchin. Well, can we see it before you let it go 
out the door?
    Chairman Pai. We go through the standard process, notice, 
and comment, etc., so we would be happy to provide that.

    [The information follows:]

                       5G FUND FOR RURAL AMERICA

    On April 9, 2020, the Federal Communications Commission released a 
staff report detailing how a plan for establishing the 5G Fund for 
Rural America could make as much as 67 percent of land in 49 States and 
3 U.S. territories eligible for 5G Fund support. The report was 
provided to Senator Manchin as well as all other Members of the FSGG 
Subcommittee.
    On April 23, the FCC sought comment on Proposed 5G Fund Program to 
Distribute Up to $9 billion for Next-Generation Wireless Broadband 
Connectivity in Rural America. The release was provided to all FSGG 
Subcommittee Members. The Notice of Proposed Rulemaking provides two 
different approaches to the 5G Fund: one using currently available data 
to start an auction in 2021, and a second option which would wait for 
new mobile broadband coverage data and begin the auction no earlier 
than 2023.

    Senator Manchin. Commissioner Carr, do you have any 
comments on this?

                   HAMLIN AND MADISON, WEST VIRGINIA

    Commissioner Carr. Senator, thank you. I have been in 
Hamlin and Madison, West Virginia. I have seen for myself the 
challenges. I think the Chairman has it exactly right. We have 
to move away from this top level political messaging of there 
is bad maps. There are bad maps. We have to parse that. The 
maps are bad because they tell you there is service when there 
is not. Where the maps tell you there is no service, there is 
in fact no service.

                   PUTTING MONEY INTO UNSERVED AREAS

    So I think what the debate is, let's identify those areas, 
which the Chairman has done, those are locations in West 
Virginia, and let's go today as quickly as we can to put money 
into those areas while we move in parallel to solve this area. 
But to say the maps are bad, we can't go, stays up here and it 
doesn't meet the reality on the ground.
    Commissioner Rosenworcel. So, let me be clear.
    Senator Manchin. Very quickly.
    Commissioner Rosenworcel. I agree with my colleagues but 
here is what we shouldn't do. We have got $20 billion to spend 
in the next 10 years, and in the next few months we are going 
to spend $16 billion of it without first fixing our maps. That 
we are going to spend most of our money in the next few months 
without first fixing our maps for the next 10 years.
    Senator Manchin. Commissioner Starks.

      STATE BROADBAND SUBSIDY PROGRAM PITTED AGAINST RDOF DOLLARS

    Commissioner Starks. Yes. The real point is that the maps 
are so fundamentally flawed, we really do not even know where 
broadband is and is not. And so there are a lot of communities 
that are going to get left behind, are going to miss this $16 
billion train because the maps are so bad. The other point that 
I would interject here really quickly is that because of a 
last-minute change that we made, there are 30 States and 
billions of dollars that are going to have their money pitted 
against--a State broadband subsidy program is going to be 
pitted against our RDOF dollars.
    I think this was fundamentally bad policy. It is going to 
hurt States. It is going to hurt Americans to have an offset of 
Federal and State dollars in a way that we have never had in 
what has always been a joint program to solve universal 
service.
    Senator Kennedy. The Chairman is trying to weigh in here. 
Go ahead, Mr. Chairman.
    Chairman Pai. So the political sleight of hand you have 
just seen is exactly the problem. We know there are areas that 
are unserved. We know there are areas where the maps are 
flawed. What they are saying is essentially do not serve these 
areas through phase one, even though we know they are unserved, 
they are costly to serve, until we fix this problem.
    Point number two, with respect to the problem that 
Commissioner Starks has identified, broadband providers should 
not be paid twice to do the job once. If a State has said to a 
broadband provider, here is funding to provide 25 megabits per 
second service.
    I do not want the FCC coming over the top and double 
funding that company or funding another company to do the exact 
same thing. That is an irresponsible use of taxpayer funds. If 
you were to do that and run for re-election, people would ask 
you, Senator, why on Earth do you fund these companies twice to 
do the same thing once? That is exactly the same principle.

          SPENDING MONEY AND LEAVING BEHIND UNDERSERVED AREAS

    Senator Manchin. The only other thing I would say to any of 
this that you are talking about, I hope you are taking into 
consideration where there is dire poverty in these underserved 
areas, because if you say, you know, the maps already assured 
that this area is underserved right now and you know that they 
have no coverage whatsoever and the money goes there, but you 
have a poverty, stricken poverty which is dire and they are 
showing that the maps are flawed and you haven't fixed the 
maps, we are going to be left behind because you will be 
spending all the money. There is nothing left.
    Chairman Pai. Senator, I couldn't agree more. A few weeks 
ago, I was Ethete, Wyoming, a very poor part of the Wind River 
Reservation in rural Wyoming. These folks who are on the wrong 
side of the digital divide, but thanks to our policies of 
getting that funding out the door because we knew they were 
unserved, gigabit fiber is being provided to the members of the 
Northern Arapaho nation and the Eastern Shoshone.
    Papers are never going to brag about it, cable news is 
never going to talk about it. The digital divide closing 
because we are not willing to wait to extend digital 
opportunity to every American we know is unserved.
    Senator Kennedy. We are going to have to move on here. But 
Senator Manchin asked for a list. When do you think you will 
have that provided for him and for rest of us?
    Senator Manchin. Mr. Chairman, if I could clarify that. 
What I was asking for is all of us should be able to see, they 
are wanting to put $16 billion out the door, okay, and that is 
the areas that you already know that there is absolute--the 
maps are not in flaw. You are saying it already identifies 
those areas that need coverage.
    I am not disputing that. I am just saying, when that goes, 
we know the areas that are in dire poverty in Appalachia aren't 
going to get a darn thing because the money is gone. We want to 
know where you are putting this money before you let it go out. 
Don't send out the door and then say, here is where we sent it 
to.
    Senator Kennedy. Well said. That is the list I am talking 
about. When do you think that will be ready?
    Chairman Pai. There too, I will check with the staff that 
is working on the Rural Digital Opportunity Fund to get you the 
eligibility list for you.
    Senator Manchin. Before you send the money out.
    Senator Kennedy. By June 1?
    Chairman Pai. I will check on that, Senator. I can't commit 
to the time. It depends----
    Senator Kennedy. Okay. Would you share a copy of that----
    Chairman Pai. Oh, absolutely.
    Senator Kennedy [continuing]. With us before you cut the 
checks?
    Chairman Pai. The list will be public.
    Senator Kennedy. But will you share a copy of that with us 
before you cut the checks?
    Chairman Pai. Yes, sure. I will be happy to.

    [The information follows:]

           RURAL DIGITAL OPPORTUNITY FUND PHASE I AUCTION 904

    On March 17, 2020, all FSGG Members were provided with an emailed 
release of the following information: The FCC's Wireline Competition 
Bureau has released a preliminary list of census blocks that have been 
deemed initially eligible for the Rural Digital Opportunity Fund (RDOF) 
Phase I auction (Auction 904). Interested parties had an opportunity to 
identify by April 10, 2020, any of the listed census blocks that should 
not be eligible for support.
    To help prospective auction participants, the Bureau also released 
list of associated census block groups and reserve prices, and a list 
of the associated census tracts and reserve prices. The list of census 
blocks, census block groups, and census tracts can be found on the 
Auction 904 website: www.fcc.gov/auction/904. A map of initially 
eligible areas is available at https://www.fcc.gov/reports-research/
maps/
auction-904-preliminary-eligible-areas.

                          ELIGIBLE AREAS LIST

    Commissioner Carr. Senator, one other----
    Senator Kennedy. Do you think it will be very soon?
    Chairman Pai. Well, I mean the list--we are talking about 
millions of potential locations so I can't guarantee it is 
going to be simple but what I will say is, it will be publicly 
available and we would be happy to share that with you when it 
is complete.
    Senator Kennedy. Before you spend the money?
    Chairman Pai. Correct. Absolutely. The entire purpose is 
for our purpose too. To come up with the eligible areas list, 
we need to give certainty to people as to where to bid so----
    Senator Kennedy. Okay. I am sorry, Mr. Commissioner, but 
Senator Boozman has been waiting patiently and I want to call 
on him and point out that we claim him in Louisiana because he 
was born in Shreveport.
    Senator Boozman. Thank you, Mr. Chairman, very much. I 
think one thing that we can agree on is that there is going to 
be lots of money pushed out in the not-too-distant future 
really by your agency. USDA has gotten involved. You know, you 
have got lots of different entities, all kinds of public-
private mixes in the sense the co-ops, whatever.

                COORDINATION WITH AGENCIES ABOUT FUNDING

    And I guess the question I would have is what kind of 
coordination? What we don't want is over building in whatever 
area, you know, in the sense of the agency not working 
together. This is, you know, a problem that I have seen for 
countless years. It is endemic to Government. Can you talk a 
little bit about that?
    Chairman Pai. I appreciate the question, Senator, and I 
couldn't agree more. The Federal Government needs to be on the 
same page when it comes to administering the programs by virtue 
of the authority that you granted to us. And I can tell you 
that I have personally spoken many times when Secretary Purdue 
at the U.S. Department of Agriculture.
    Our team has worked with his team and with the other staff 
in the rural utility service to make sure we are on the same 
page. And that goes with other agencies too that might have a 
bite of the apple, so to speak. We want to make sure that we 
are coordinating so that we don't duplicate funding or 
otherwise direct investment to a place that it shouldn't be 
directed to.

                         6 GIGAHERTZ FOR WI-FI

    Senator Boozman. Again, these are things that I think we 
all can agree on. FCC is looking at opening up a new band of 
spectrum in the 6 gigahertz for Wi-Fi. Electric utilities and 
broadcasters are allowing part of that spectrum. Can you tell 
the panel what other type of users are currently in that band 
and what the plan would be to make sure that any new Wi-Fi 
devices don't interfere with license users in that band?
    Chairman Pai. I appreciate the question, Senator. And it is 
very important, as I said from the beginning, that our goal 
here is twofold. Number one, to explore whether further 
unlicensed operations in the 5925 to 7125 band can be 
accommodated, but second, importantly, to protect incumbents 
from harmful interference.

           EDISON ELECTRIC INSTITUTE AND THE 6 GIGAHERTZ BAND

    And I just spoke late last week to the Edison Electric 
Institute, which serves approximately 200 million Americans 
with power across this country. They want to make sure that the 
FCC knows about the importance of the 6 gigahertz band to those 
electric incumbents and what I told them is what I will tell 
you. Our decision here is driven not by politics, not by press 
releases, but by physics and that is why I have sat down 
extensively with our Office of Engineering and Technology to 
understand the variety of use cases, indoor versus outdoor, 
power level and the like, to ensure that to the extent we allow 
unlicensed operations in any part of that band, the incumbents 
are going to be protected from harmful interference.
    And I look forward to continuing those conversations with 
our colleagues in the electric and other industries along with 
the Department of Energy and the Federal Energy Regulatory 
Commission (FERC) and other agencies.

                C-BAND SPECTRUM AND THE DEPLOYMENT OF 5G

    Senator Boozman. 5G is a good story. You have all worked 
hard and that has been difficult. Can you elaborate on how the 
FCC's current strategy to reallocate C-band spectrum will 
accelerate the deployment of 5G, and explain the actions the 
FCC is taking to make additional spectrum available for 5G 
services.

                              5G FAST PLAN

    Chairman Pai. Very grateful for the question, Senator. We 
have been executing very aggressively on the 5G FAST Plan, and 
nowhere more so than when it comes to spectrum. We successfully 
completed auctions of the 28 and 24 gigahertz band. We are in 
the middle of an auction of the upper 37, 39, and 47 gigahertz 
band. Those auctions alone have supplied the Treasury of $10 
billion.

                        MID BAND SPECTRUM FOR 5G

    Now through the C-band auction, we have an incredible 
opportunity to push 280 megahertz of prime mid band spectrum 
into the marketplace for 5G. It is going to deliver billions of 
dollars of value to the American consumer, allow innovators to 
pursue 5G here as opposed to other parts of the world that want 
to seize 5G leadership, and importantly, it gets mid band 
spectrum into the bloodstream.
    When I became Chairman, there was nothing on the shelf, 
nothing in the cupboard at all, with respect to mid band 
initiatives. We changed that through the 2.5 gigahertz 
initiative, the 3.5 auction which starts in June 25, the C-band 
auction. We are also looking at the 4.9 gigahertz band. These 
are major initiatives that are going to deliver U.S.--value to 
American consumers and advance American leadership in 5G in 
coming years. I am really excited about what this means for our 
economy and for our consumers.
    Senator Boozman. Very good. Thank you, Mr. Chairman.

          FOREIGN SATELLITE COMPANIES OPERATING IN THE C-BAND

    Senator Kennedy. Thank you. Let me ask a real quick 
question. I will start with Commissioner Starks. Do our 
friends, the foreign satellite companies, who are now operating 
in the C-band have a license from the FCC?
    Commissioner Starks. Yes, they do.
    Senator Kennedy. Okay. Let me give you an overview of one 
person's point of view and then I will ask you to react to it 
rather than trying to go through this question by question. 
Many years ago, the FCC gave our friends, the foreign satellite 
companies, the right, the privilege of using the C-band. They 
have been using it. They have spent a lot of money on 
satellites and other operational costs to use the spectrum. 
They paid nothing for the spectrum. To their credit, being a 
smart business, women in smart business, men in smart business 
that they are, they made a lot of money off of it.
    I think it is Section what, 316? Or 336? FCC can modify 
license at any time if, ``such action will promote the public 
interest, convenience, and necessity.'' Everybody knows that 
the FCC, even though you grant a property interest and I am 
uncertain about what kind of property interest the C-band 
satellite companies have, but if you need to, you can take it 
back at any time.
    I don't blame you for trying but the foreign satellite 
companies came up with this well idea to let them handle the 
auction and they would keep the money and they would pocket 
between $60 and $80 billion that we could use, among other 
things, for rural broadband. You got a lot of pressure to do 
that. They pounded on you. They hit in the shrubbery at your 
house, came home trying to get you to do it.
    To your credit, you said nuh-uh. We are not doing this. 
This is taxpayer money. We are going to do what we always do, 
bid it out. You have decided to bid it out. You have come up 
with a figure of I will call it $10 billion as incentive 
payments and between $3 and $5 billion to cover the costs of 
the incumbents moving. And I don't understand how we came up 
with the $10 billion dollars? I understand the reason for it. 
You want to avoid litigation. You are going to get sued anyway. 
The small satellite companies are going to sue the bejesus out 
of you.
    Our friends, the foreign satellite companies, aren't happy 
with the way you split the money. They are going to sue you. 
The issue is not whether you get sued, the issue is whether 
somebody is going to get an injunction and stop you. So why I 
mean, why do you worry about the litigation? Why don't you just 
go forward and they are going to litigate anyway. I agree with 
you that Congress acts slowly and I don't know, I think we can 
come up with a bill, but as I have said publicly, I don't 
understand where we got the $10 billion figure. That is a lot 
of jack. And the satellite companies aren't even going to 
accept it. It is what it looks to me like.
    And we are setting a precedent here. I mean spectrum is 
finite resource. We are going to be moving around a lot. You 
know what is going to happen when the next time you have to go 
to somebody and move them, they are going to put--I don't blame 
them. It is good business. They are going to say, pay me or 
trade me. And I think that is why it is very important that we 
get this $10 billion figure right.
    I have got a bill that says $1 billion, which I think is a 
lot of money. And I just don't understand how we came up with 
$10 billion figure and I don't understand your authority to do 
it. As I read the case law, it just says you have the authority 
to force the bidders to pay for reasonable location costs. And 
anyway, that is one point. I used the whole damn 5 minutes.
    [Laughter.]
    Senator Kennedy. I would just like you too quickly to give 
me your reaction, am I wrong or am I right? Let's start with 
Commissioner Carr.

            FCC LEGAL AUTHORITY AND TAKING THE SPECTRUM BACK

    Commissioner Carr. Senator, thank you for your leadership 
and for your advocacy on this. I think it has helped in terms 
of where we ended up. Look, I think we do have significant 
legal authority at the FCC to have just said, as you pointed 
out, this isn't a real property interest. We are taking the 
spectrum back. There would have been several practical problems 
if we had gone down that path though.
    Senator Kennedy. Do they have a property interest?
    Commissioner Carr. They do not have a real property style 
interest.
    Senator Kennedy. Do the foreign satellite companies have a 
property interest?
    Commissioner Carr. No. That is why we have the authority to 
take these licenses back because they aren't treated with the 
same dignity as a property interest.
    Senator Kennedy. Okay. So how did you come up with the $10 
billion? Why didn't you go to them and say, gentlemen, ladies, 
we can do this the easy way or the hard way. We are going to 
offer you $1 billion, please take it. It is better than zero 
dollars.
    Commissioner Carr. I like that approach. What we did in the 
decision was because we are----
    Senator Kennedy. And they are going to say we are going to 
sue you, and at that point you say, here is my iPhone, look up 
the courthouse on Google.
    [Laughter.]
    Senator Kennedy. And you can go, because we are going to 
get sued anyway.
    Commissioner Carr. Right. Like you, I am comfortable easy 
way or hard way. But what the order walks through is we relied 
on four to five different factors and variables in terms of----
    Senator Kennedy. I know all that but how did we come up 
with the $10 billion?
    Commissioner Carr. That is how we can with the $10 billion. 
We looked at those four to five separate variables. We have 
some equations that we walked through, and part of it is, you 
know, my colleagues have suggested----
    Senator Kennedy. Yes, I get it. You have got an incredible 
staff and you sat down and you did a quantitative analysis of 
the potential value to the bidders of what they would pay to 
get the incumbents off. And that is all well and good. Okay. 
When I go by car, I can go to Blue Book and go over here and 
say what they pay and I have researched it exhaustively but 
nothing stops me from going in and taking the figure that the 
experts say and cut it in half. We are negotiating here. Why 
didn't you do that?

    ADMINISTRATIVE PROCEDURE ACT VERSUS NEGOTIATION WITH SATELLITE 
                               COMPANIES

    Commissioner Carr. Because of the administrative procedure 
act gets separate from a negotiation like that. My colleagues 
suggested, for instance, that there was some sort of backroom 
deal. The reality is there is no deal. What we have to do is we 
have to go through these factors and this methodology that 
kicks out a number and that is our offer. And they can take it 
or they can leave it. At this point, we don't know for 
certainty what they are going to do because they haven't 
indicated that they are going to take it.
    In fact, one company has suggested they may not take it. I 
think it is in their interest to but the number was derived 
from the record, the math, and the analysis because of the 
Administrative Procedure Act is not an iterative negotiation 
that would----
    Senator Kennedy. I want to be sure I understand. You are 
telling me that the law requires you to offer the $9.7 billion?
    Commissioner Carr. There is a range of final numbers that 
that methodology would have kicked out that probably could have 
survived----
    Senator Kennedy. You are telling me that the law requires 
you to follow this methodology?
    Commissioner Carr. I am not aware of another methodology 
that we could have used to arrive on that. I don't want to 
speak with certainty, but----
    Senator Kennedy. Here is a methodology. Satellite 
companies, we love you, but you don't own the spectrum. We need 
it back. We have the authority to take it back. You knew going 
in that we could do that. We are not dislocating you, we are 
just moving you to another part of the spectrum and by God, 
even though you hadn't bought a satellite since God was a 
Corporal, we are going to even buy you new satellites and on 
top of that we are going to offer you $1 billion and we hope 
you will take it because if you don't, then we are going 
forward and you can sue us. They are going to sue you anyway. I 
went over too long. Senator Coons. I will come back.

        LEGISLATION THAT WOULD END THE LIKELIHOOD OF LITIGATION

    Senator Coons. Mr. Chairman, I have a suggestion. We will 
have, I presume, another hearing where we will dig into this 
deeper. I would certainly welcome, since there seem to be 
competing views, submissions that help us to better understand 
if we move forward rapidly with an attempt to legislate that 
would end the likelihood of litigation, success, what would 
that look like, and how can we best assess our likelihood of 
success? Because wouldn't it be great to have $10 billion more 
that we could invest in universal service fund, access to 
broadband, killing robocalls, you name it.
    I can come up with a lot of purposes and so can you. And in 
the alternative, your best estimates of what is the approach 
that minimizes litigation costs and moves as quickly as 
possible. That seems to me the two choices we are struck 
between. I have got three other areas I want to quickly ask a 
question about, if you will forgive me.
    Senator Kennedy. Take all the time you need.

                               ROBOCALLS

    Senator Coons. First, on robocalls. I think I got one 
literally during this hearing. A number that I have never heard 
from that looks eerily similar to----
    Senator Kennedy. That was Schumer.
    [Laughter.]
    Senator Coons. No, those I know. Those are blocked. I am 
just kidding. You know, I am a co-sponsor of the TRACED Act. 
There has been real progress in the shaken, stirred approach. I 
just have some concerns about, many fines that have been 
leveled against robocallers don't get collected.

              COLLECTING FINES LEVELED AGAINST ROBOCALLERS

    One Commissioner suggested, you ought to be asking for more 
staff at FCC to help facilitate that. There is also some 
possibilities we might be able to help with another Federal 
agency in terms of their responsiveness. I think there is 
broad, not just bipartisan but universal, anger and upset among 
average Americans about the millions, billions of robocalls we 
are getting.
    Briefly, if I can hear from Chairman Pai and Commissioner 
Rosenworcel, what is the thing we should be doing to help you 
lever, impose, and collect fines and services? Is it increasing 
your head count? Is it increasing your legal authorities?
    Chairman Pai. Appreciate the questions, Senator. And this 
is again our top consumer protection priority. We know it 
frustrates you as it frustrates us as regulators and consumers 
ourselves. With respect to collections, we do not have 
independent statutory authority to institute collection 
actions. That is done by the Department of Justice and we have 
emphasized to the Department of Justice the importance of 
actually collecting on the fines that the FCC has imposed 
through a forfeiture order. We will certainly consider 
continuing those conversations and would be happy to have you 
engaging with them as well.
    Senator Coons. We might be helpful.
    Chairman Pai. With respect to our own staff, it is not just 
that team of people in the enforcement Bureau that works on 
robocalls, there is a huge step in the Wireline Competition 
Bureau, for example, that works on these as well as well, as 
staff throughout the agency, the Office of Economics and 
Analytics, and other parts of the agency. So we do have a big 
team working on the rulemaking side of the ledger, so to speak, 
as well as the enforcement side and they do tremendous work.
    Senator Coons. If you could increase the enforcement 
headcount would you take it?
    Chairman Pai. Again, Senator, this is part of the reason 
why it is important for us to think about balancing the other 
enforcement priorities. For example, with the Pirate Act. That 
is one of the reasons why--that is an $11 million requirement 
that was imposed on the agency. It is not included in our 
budget. So we would have to balance that important function 
that you are talking about with the statutory mandate that 
Congress recently gave us.
    Senator Coons. Commissioner Rosenworcel.
    Commissioner Rosenworcel. Sure. Robocalls are so annoying 
and consumers everywhere feel that. It is the single largest 
complaint we get year in and year out. So we need more staff. 
The public record reflects we only have 12 people full time 
devoted to this, and the average enforcement action takes 649 
days. That is not acceptable. We need a whole division, a task 
force, and more people fighting this scourge.
    Senator Coons. I would welcome a specific suggestion about 
exactly what headcount would be----

                 ROBOCALL FINES VERSUS FINES COLLECTED

    Commissioner Rosenworcel. And in addition, I would say we 
need to do a much better job when it comes to collecting. The 
Wall Street Journal has pointed out that we have issued more 
than $200 million in robocall fines, but collected less than 
$7,000. That is not satisfying.
    Senator Coons. I would love to hear how we can do it. I 
think this is an area where we can be helpful in encouraging 
the Department of Justice and their role in this. Lifeline 
program. I am interested in both how do we do a better job at 
responding in this crisis COVID-19, in particular around the 
homework gap. As a county executive, we had a robust public 
library network. I am going to a call in a few minutes with 
leaders of my State and will be asking them about how we might, 
in this urgent situation, be more effective.

   WORKING FROM HOME, HOMEWORK, TELEHEALTH, AND THE LIFELINE PROGRAM

    As you are literally going to have, I think, large numbers 
of Americans working from home in the next couple of weeks or 
months, we are going to see serious strains on what the 
capabilities are of our systems. So whether it is homework, 
whether it is telehealth, whether it is work from home, never 
let a good crisis go to waste. I think this might be a timely 
opportunity for us to re-examine what is possible in terms of 
emergency response around work from home and study from home. 
Chairman Pai, why has the Lifeline program decreased so 
dramatically in the last 2 years in terms of its scope and its 
reach? I think it has reduced by over 30 percent in the last 2 
years.
    We have got 20,000 Delawareans that is not a lot in most 
States but in my State that is an appreciable percentage of the 
population, who participate. Is there more we could or should 
be doing? I respect the importance of reducing fraud waste and 
abuse to Federal programs. Have we hit that target or over-
performed on that point?

                       NATIONAL VERIFIER DATABASE

    Chairman Pai. Senator, with respect to the enforcement part 
of it, we have been very aggressive in making sure that 
unscrupulous carriers don't bilk the American taxpayer and deny 
funds that properly belong to low-income consumers. And that is 
part of the reason why for instance we have gone after 
companies, and in some cases have bilked the Lifeline program, 
for subscribers who don't even exist or subscribers with 
multiple enrollments and the like. And we have stood up the 
national verifier, which is a national database essentially 
that when a subscriber wants to sign up, it pings that 
database.
    And now we do have connections with the vast majority of 
States and Territories to make sure okay, you are who you say 
you are, and you are in fact eligible. And that is one way of 
making sure that every dollar that is spent in the Lifelines 
programs across the country or in Delaware, goes to somebody 
who actually needs that benefit.
    Senator Coons. Any more input on that? Forgive me, 
Commissioner Starks and Rosenworcel.
    Commissioner Rosenworcel. We have had problems historically 
with this program, but we have moved past the point of waste to 
weaponizing the bureaucracy against those who are most in need. 
And that is my primary concern. We have got 2.2 million elderly 
on this program, 1.3 million veterans. We have got half a 
million people in Puerto Rico who are trying to pull their 
lives together after earthquakes and storms. Why are we going 
to such efforts to cut them off? We should be doing what we can 
to extend the service to those who need it, and now with 
coronavirus, we should be expanding it.
    Senator Coons. Commissioner Starks.
    Commissioner Starks. Yes. I mean, I think we really need to 
figure out this program that we are going to try to build up or 
we are going to try to tear down. There was an earlier notice 
of proposed rulemaking (NPRM) that was suggesting that Lifeline 
beneficiaries could potentially have to pay more in order to 
get Lifeline, which I think is exactly the wrong questions we 
should be asking of our most vulnerable Americans. And again, 
when we are talking about SNAP and work requirements for SNAP, 
SNAP being a direct tie that leads into Lifeline, these are 
issues that are going to have to be worked through on our 
social safety net with coronavirus.
    But Lifeline is going to be an indispensable part to 
getting connected for some of our low-income Americans. And I 
have visited a number of homeless shelters. I think part of the 
answer that we really need to do, because the program is 
significantly underutilized by some good deal for those who are 
otherwise eligible for Lifeline, we need to do, especially in 
times of coronavirus, making sure that our low-income Americans 
are searching out this program and know about it.

       6 GIGAHERTZ AND CONCERNS FROM UTILITIES ABOUT INTERFERENCE

    Senator Coons. This is a program I would like to see well 
serving a broader number of Americans with confidence that it 
is not being bilked. Last question, C-band, was asked 
previously by--excuse me, not C-band, 6 gigahertz. Was 
previously asked by Senator Boozman, but I just--I would 
welcome a little more detail because there is going to be a 
huge amount of 5G traffic that if we are going to meet our 
goals in terms of robust performance, have to be offloaded to 
Wi-Fi networks.

          STRIKING THE BALANCE BETWEEN LICENSED AND UNLICENSED

    I too have heard concerns from utilities about 
interference. I appreciate the comment, Mr. Chairman, about you 
know, we are going to do this based on physics in terms of low-
power, indoor, outdoor, and what it looks like in terms of 
possible interference should any of this band be reserved for 
licensed use, and how do you strike the right balance between 
licensed and unlicensed, between Wi-Fi and license use? Mr. 
Chairman.
    Chairman Pai. That is a very difficult question and it is 
one of the reasons why this particular band has been very 
challenging, not only because we want to make sure that we 
protect incumbents from harmful interference, but the FCC has 
to make a fundamental decision about the balance between 
licensed and unlicensed.
    The proposal that the Commission went forward with 
initially was to reserve the entire 1200 megahertz, 5925 to 
7125 for unlicensed. We believed, and I think many innovators 
do too, that those 160 megahertz wide channels would drive 
tremendous innovation and investment for the benefit of 
American consumers. And think about gigabit, Wi-Fi, what that 
means to be able to provide it for free to people in urban 
areas and rural areas that could really be a game changer. But 
at the same time we want to make sure that we are thinking 
about the license side of the equation as well. So that is one 
of the proposals that has been teed up by wireless companies to 
essentially split the band lower 600 for unlicensed, upper 600 
for licensed, and we will be able to go through and consider 
that.
    But at the same time, as I mentioned to you, it is very 
important for us to think about the implications of each of 
those decisions. If we went to a licensed route for instance, 
how would we do that? How would we relocate incumbents? What 
band would the incumbents inhabit? Are there any incumbents in 
that new band that they would have to deal with? How would the 
FCC manage that? The auction processes, etc. I mean, it is 
very, very complicated.
    And I really appreciate your putting your finger on the 
point about physics. I can't say this enough that to me, this 
is driven by a bunch of Engineers showing us, look this is what 
happens when you have Wi-Fi indoors at very low power or low 
power. This is what happens when you have Wi-Fi outdoors. That 
is not political question. I don't have the answer neatly in my 
head. It depends on what the lab tests and the other 
experimentation shows.
    Senator Coons. I look forward to coming back to this issue 
when we have our next hearing. Mr. Chairman, thank you for your 
vigorous engagement on this issue and I look forward to working 
with you to respond to several of the issues that have been 
raised. I think having a clear plan about how we are going to 
deploy 5G, how we are going to meet or stay ahead of our 
competitors, and how we are going to deliver value to the 
taxpayers is exactly why you guys get paid the big bucks and we 
are just Senators. So, thank you very much, Mr. Chairman.
    Senator Kennedy. Senator Daines.

                 BROADBAND DEPLOYMENT IN RURAL MONTANA

    Senator Daines. Thank you, Chairman, Ranking Member. I 
first want to thank the members of the Commission here today. 
And I want to invite you all to come back out to Montana to see 
firsthand the issues we are talking about today. In fact, 
literally here an hour ago I was engaged on Skype with a high 
school class from Baker, Montana. If you look on a map of 
Montana, you are not going to find Baker in the middle. It is 
way off in our southeast corner in Fallon County, but just 
another example of the importance of connectivity where a U.S. 
Senator can engage with a classroom that is a long ways away 
from any urban areas.
    And one of the questions the student asked me was, what we 
do about mental health challenges in rural America. And one of 
those solutions certainly is telemedicine and telehealth. So 
this could not be a more important topic today as we think 
about rural connectivity and so forth. And speaking of rural, I 
know, Chairman Pai, you grew up in a smaller town in Kansas. 
Thanks for working with me to prioritize rural broadband 
deployment and always trying to find a compromise on these 
important issues.
    Everything, whether it is C-band, TV white spaces, you have 
worked with all those affected and Members of Congress like 
myself to find solutions. Your pragmatism and leadership is 
noted and respected. Commissioner Carr, I have been working 
with Montanans on a bill that will help expedite broadband 
deployment in rural Montana. This bill requires the Federal 
Government to expedite approval to deploy broadband in existing 
Federal right of ways like roads, like canals, railways.
    In places like Montana, there are miles and miles of roads 
between towns, farms, and ranches. Having access to existing 
infrastructure can be the quickest and the cheapest way to 
deploy broadband. My question, Commissioner Carr, you recently 
visited with me in Montana and you saw this firsthand. How 
important is it that we reduce barriers for rural broadband 
deployment like access to existing infrastructure so Montanans 
are able to be connected and participate in this global 
economy?
    Commissioner Carr. Senator, thank you for your leadership 
on this issue. I have done the drive myself from Missoula all 
the way up to Great Falls. A couple hours, some of the most 
beautiful parts of the country, but some of the worst cell 
phone service that I have had in my time traveling this 
country. I think your legislation would go a long way to 
solving that issue. We have been doing a lot of work at the FCC 
to get our own house in order to cut red tape.

          REFORMS TO NEPA AND HIPAA FOR BROADBAND DEPLOYMENTS

    We have worked to eliminate outlier conduct at the State 
level. I think, to your point, targeting now the Federal 
assets, how we can open those up on a more cost-effective 
basis, more timely basis, and potentially looking at reforms to 
NEPA and the HIPAA, the historic environmental laws so they 
make sense for broadband deployments and aren't unduly slowing 
those down.

                 PIRATE ACT AND PIRATE RADIO OPERATORS

    Senator Daines. You got a chance to experience, for some it 
is, can you hear me now? Where you were at, I can't hear you at 
all. And sometimes, you have to experience that to see the 
importance and think about the safety issues as well. You are 
traveling along there, accidents occur, you hit a deer or 
something, have an accident. The ability to get First 
Responders there quickly. Chairman Pai, after years of work, 
earlier this year President Trump signed my bipartisan Pirate 
Act. This law gives the FCC additional tools to go after pirate 
radio operators who interrupt and affect our emergency 
broadcast system, Air Traffic Control communications, and other 
legitimate broadcasters.
    This disproportionately hurts Montana's rural communities 
who depend on broadcast communications for news safety 
information. It is my understanding the bill passed after your 
budget was already finalized and the Commission may need some 
additional resources now when thinking about the implementation 
end. And my question, if you were to give information to this 
subcommittee, what tools do you need from this committee to 
implement this important law?
    Chairman Pai. Thank you for the question, Senator, and I 
appreciate your leadership on the Pirate Act. Pirate radio does 
a harm to consumers and broadcasters alike and we are committed 
to that goal. From our perspective, it would be helpful to have 
additional resources from the subcommittee, from this Congress 
to enforce the Pirate Act. In particular, we estimate it would 
cost $11 million to fulfill that mandate.
    In particular, we have to hire approximately 30 staff, for 
example, to conduct sweeps that are required under the Pirate 
Act, including a number of Engineers to be able to detect the 
Radio Frequency (RF) environment and the like. Additionally, we 
also have to have equipment, the cars and the other equipment 
that go on in the cars to do that necessary work, plus a 
software system. The information technology software does not 
exist currently to be able to manage that entire process.
    So all told, between personnel, equipment, and software, we 
estimate it would be $11 million, which is not included in the 
$343 million budget request.
    Senator Daines. Okay, that is helpful for us here so we can 
target to make sure you get the resource you need here after we 
pass that important bill. Last question, important one. Huawei. 
I am hearing a lot of uncertainty from my rural carriers. This 
ties right into this earlier statement I made about how we 
deploy connectivity here to rural Montana.

  H.R. 4998 REQUIREMENT TO IMPLEMENT A RIP AND REPLACEMENT SYSTEM FOR 
                            HUAWEI EQUIPMENT

    I have rural carriers out there that are homegrown 
companies that are really providing that last mile, that last 
hundred yard service here because a lot of our folks live a 
long ways away from any populations. This is this implantation 
of H.R. 4998 which will be signed the law shortly. So this bill 
requires the Commission implement a rip and replace system for 
Huawei equipment in our rural networks. It is very important, 
extremely important, that our rural carriers are able to 
continue to operate and upgrade their system so that customers 
up in places like Scobey, Montana.
    Think about where I talked about Baker I spoke with, go 
back up to the very extreme northeast part of our State, Baker 
is down the southeast part. And you have got a community, 
Scobey, and Plentywood and so forth. From Scobey to Great 
Falls, they need this upgrade so my Montanans can have access 
to reliable wireless communications. Chairman Pai, my question, 
how quickly do you expect to have guidance and regulations in 
place for our rural operators?
    Chairman Pai. I appreciate the question, Senator. This is 
an important National Security issue. We have an outstanding 
further notice of proposed rulemaking and an information 
collection that solicits from the folks you are talking about 
exactly what types of problematic equipment they have from 
Huawei and ZTE and the like in their networks now so we can 
understand the scope of the problem. Secondly, the funding 
stream is very important.

            EXPAND UNIVERSAL FUNDS TO ENABLE RIP AND REPLACE

    We do not have the authority to expand universal service 
funds to enable them to rip and replace it. Those resources 
would have to come from Congress. And so we would be happy to 
work with you on that funding stream.
    Senator Daines. And of course now, I will be finished here, 
Mr. Chairman, but the challenge that we face is, you know, the 
larger carriers have the financial ability to make that pivot. 
The small folks don't, and this becomes an existential threat. 
And the big players often don't go into the areas where my 
smaller providers are.
    And so we have got to find a way to keep them vibrant, 
viable, and this rip and replace, this mandate without some 
kind of means for them to make this change, leaves them very 
exposed. And I appreciate first recognizing the problem and how 
we can continue to protect not just the big guys here, but it 
is the little ones that concern me the most.
    Chairman Pai. I couldn't agree more, Senator. I mean these 
are the folks who are doing the hard work and I have seen it 
for myself in places like Wisdom and St. Ignatius. These are 
folks who are trying to do the right thing, not just by their 
consumers by providing digital opportunity, but the right thing 
by the country. They don't want to compromise our National 
Security, especially in places in the Mountain West where there 
might be sensitive military installations or the like.
    Senator Daines. Right. We have a third of the 
intercontinental ballistic missiles in Montana. So there is 
another National Security issue there as well, as you 
mentioned, why you mentioned why this is important, but you 
warm my heart when you said Wisdom and St. Ignatius. I mean I 
will tell you what, quoting those Montana towns that is 
impressive. Thanks.

                 FCC AND SATELLITE OPERATOR LITIGATION

    Senator Kennedy. Thank you, Senator. I just got a couple 
more. I realize the C-band alliance has dissolved itself. But 
let's assume for a second that the former members of the C-band 
alliance become happy and they accept your offer. Raise your 
hand if you think nobody else is going to sue the FCC over 
this?
    Commissioner Carr. It is hard to tell.
    Senator Kennedy. I think you are going to litigation 
anyway. I mean the small satellite operators, they have already 
announced that they are going to litigate. It says right here 
and it is in the press. It has got to be true. And I am going 
to quote. Here it is, Biggest Dallas. ``We will ask the courts 
to overturn this order and to instruct the FCC to start the 
entire process again.''
    Now, all I have heard from some of my friends is Kennedy 
you are holding up 5G. If you don't give the foreign satellite 
companies what they want, they are going to sue you. Okay, you 
are going to get sued anyway.
    I mean, I think it is a very interesting interpretation of 
the case law. I am not the experts, you folks are, but I have 
read the cases and the cases tell me that number one, you can 
only pay an incumbent for reasonable relocation expenses, and 
number two, your authority to do these incentive payments is 
questionable. So if you are going to end up in litigation, the 
issue is not whether you are going to end up in litigation, the 
issue is whether somebody is going to get an injunction to stop 
you from going forward. And I don't think they can. So my point 
is, forget about the litigation or the scare tactics, just do 
what you think is right.
    And for the life of me, I can understand if they document 
the $3.3 the $5.2 billion to relocate. I think you are being 
overly generous. I have got a list here of one of the company 
satellites. I will be glad to share it with you. They are all 
old. Guess what, they are going to have to replace them anyway. 
So you are buying them new satellites. So they ought to be 
happy with that. They are not being kicked out of the C-band, 
they are just moving to another part.
    The American taxpayer is going to pay their way. You offer 
them $10 billion, they say not enough. And I don't understand. 
This is taxpayer money and this money can be used for rural 
broadband and other things, and I don't understand why you 
don't do it by the book. I am not the APA experts that you guys 
are say. Okay, we hear you. Let me make you a new offer, $1 
billion and go read Section, what was it, 326 that says we 
don't have to offer you any billion.
    And that is where I think we are. Now that is not 
particularly politically astute. I understand there are some 
powerful players out there. You throw a $77 billion in the 
middle of the rig and the hogs are going to come from 
everywhere, all competing to be the tallest hog at the trough. 
I get that.
    But if you are going to be sued anyway, I don't understand 
why you don't just get tough. If you do the auction, and I know 
you will and I know you will do it by December 8, can one big 
company, wireless company come in and take all of it down or 
are you going to try to make sure it is fairly dispersed, 
including those smaller companies? Mr. Chairman.

                    ACCELERATED RELOCATION PAYMENTS

    Chairman Pai. I appreciate the question, Senator. At first 
I want to stress that these accelerated relocation payments and 
relocation payments generally are paid by carriers not by 
taxpayers----
    Senator Kennedy. No way, Ajit. Money is fungible. For every 
penny that they give that supposedly goes to the incumbents is 
a penny less that the American taxpayer gets. Don't try that 
one on me. I mean money is fungible, okay. Every penny that is 
paid in incentive payments, so technically by Verizon to 
Intelsat, is money coming from the American taxpayer. So that 
dog is not going on to go hunt.
    Chairman Pai. Second, Senator, with respect, we believe 
that these payments would enlarge the size of the pie, so to 
speak. They are necessary to make the auction more successful 
by increasing the time value of the spectrum----
    Senator Kennedy. I get it. We may just have to disagree on 
this, okay. I just think you can get a better deal. I know you 
can get a better deal. But--are the auction rules such that 
one, big company can come in and buy it all?

        AUCTION AND PARTIAL ECONOMIC AREAS AS A GEOGRAPHIC AREA

    Chairman Pai. We opened it to competition from everybody. 
We specifically picked partial economic areas as a geographic 
area, which limits the amount of areas that can be aggregated 
quickly. The bigger carriers wanted economic areas which are 
huge geographic zones. So one of the reasons we chose PEAs was 
to enable some of the smaller rural carriers to participate. We 
are not going to game the auction in advance like some people 
wanted and say, these people are going to win and put our thumb 
on the scale. We believe in the free market. We don't believe 
in picking winners and losers before the auction is even held.
    Senator Kennedy. Madam Commissioner.
    Commissioner Rosenworcel. Yes, we used to have pre-auction 
aggregation limits, which would limit the ability of one 
carrier to sweep in and take it all away. We did not choose to 
do that here. And I think that is a mistake and could lead to 
the kind of problem you were alluding to.
    Senator Kennedy. What is the consequence of not doing that?

          AUCTION AND THE AFFECTS OF PURE OR LESS COMPETITION

    Commissioner Rosenworcel. Well, it is a lot easier for the 
biggest companies to come in, spend money, take their spectrum 
away, and consumers as a result will see less competition. And 
less competition means higher prices and less innovation.
    Senator Kennedy. What do you say to the argument that the 
best way to have real pure competition is let everybody bid 
what they want, if they want?
    Commissioner Rosenworcel. Well, we have got a lot of very, 
very big companies with a lot of resources who can spend a lot 
of money. I would like to see some smaller companies get in the 
mix too so our markets get more competitive, more interesting, 
and more likely to deliver innovative services to consumers.
    Senator Kennedy. Okay. Will the Commission be talking about 
that issue more? I assume among yourselves you will be 
discussing the pros and cons of that?

                    COMPETITION CASE BY CASE REVIEW

    Commissioner Carr. Sir, what we adopted in the decision was 
not carte blanche to any provider to obtain this and any other 
mid band spectrum they want. We put a process in place on the 
back end. We are going to do a competition case by case review, 
and if one provider does have too much mid band or other 
spectrum, we in the decision laid out that we will run a 
process and we will analyze the actual impacts of that rather 
than on the front end trying to set an arbitrary limit.
    Senator Kennedy. Okay. Let me ask you one last question. 
Find my notes here. There have been some allegations of insider 
trading made. A member of the Fifth, the FCC Senior Counsel met 
with Intelsat's Chief Executive. The next day when the stock 
was trading at, I want to say around $24, a huge block was 
sold. And around $24, as I said, $246 million block. Today, the 
stock, I don't know. It is not trading in $24 bucks, I know 
that. What was this about?
    Chairman Pai. Senator, this is the first I have heard of 
that. I don't know what that is referring to or what you might 
be reading from.

INTELSAT'S SALE OF SPECTRUM AND THE MEETING WITH THE FCC SENIOR COUNSEL

    Senator Kennedy. Well, it has been on the paper. The saga 
kicked off in November when Intelsat's Chief Executive, Stephen 
Spengler, met with the FCC Senior Counsel, Nicholas Degani, I 
apologize if I mispronounce the name, to discuss Intelsat's 
plan to sell spectrum in a deal that had been expected to 
result in a $7.4 billion payout to the company. That meeting 
occurred on November 5. On November 6, a $10 million share 
block of Intelsat's stock was sold. Commissioner?
    Commissioner Rosenworcel. Yes, first I dissented on this so 
I didn't participate in any of these dialogues and I am not 
familiar with them, but it demonstrates the fundamental problem 
here is that proceeding like we are is devolving the FCC's 
spectrum reallocation and repurposing into let's make a deal. 
We need a standard from Congress so we do this fairly, openly, 
and transparently, not just in the C-band but in all spectrum 
going forward.
    Senator Kennedy. Anybody else on this? I am not suggesting 
that any of you are involved in this. I just want to know what 
happened. Is it normal that your General Counsel meet with, 
assuming you have meetings all the time?
    Commissioner Starks. I also dissented and know nothing 
about this, Mr. Chairman, but this gives me some deep concern.
    Chairman Pai. Senator, to be clear, I am not aware of any 
insider trading allegation involving Mr. Degani or anyone else 
at the FCC.
    Senator Kennedy. You need to look at this.
    Chairman Pai. I will be happy to take a look at it. But the 
notion either approving or dissenting of an order has anything 
whatsoever to do with an allegation of the type you are 
describing is repugnant and I definitely would be happy to take 
a look at whatever allegation is, but I want to strongly defend 
the conduct both of the Commission staff including Mr. Degani 
and of our career staff that have worked tirelessly on this 
entire effort in the public interest, not in any private 
interest whatsoever.
    Senator Kennedy. Well just to be clear, I don't know what 
happened. I am not saying anything happened. Here is the 
article, Intelsat's Biggest Investors Sold Shares Just Before 
Massive Stock Plunge. I don't know where it is from. But 
anyways, I have read 10 or 20 articles about it, and supposedly 
there was a meeting between the President of the company and 
the FCC General Counsel on November 5. And November 6, a huge 
block went for sale, sold around $24, and shortly thereafter 
the bottom fell out of the stock. I am not making any 
allegations. I am just asking you what is going on if you know.
    Chairman Pai. Well, Senator, this sounds like private 
conduct which would be the purview of the Securities and 
Exchange Commission not conduct involving an FCC employee as I 
understand the story you are talking about.
    Senator Kennedy. Well, except the story says it was your 
General Counsel that met.
    Chairman Pai. Well, Senator, we would be happy to produce 
an ex parte documenting that and every other meeting with any 
satellite companies which they had with all four, five 
Commissioners. There have been many of them. And to link them 
to any type of, the story that you are referring to----
    Senator Kennedy. I am not making any allegations. I just 
asked you what happened. You might want to look into it. We 
will be having another hearing. I want to thank all of you. I 
want to thank you, especially, for doing a public auction. We 
came this close to giving away $60 to $80 billion, this close. 
And I know a lot of you got a lot of pressure. And I want thank 
you for doing the right thing. I think we could do better than 
the $10 billion. You know how I feel.
    I understand I am Monday morning quarterbacking. I am not 
sitting in your seat. I am just saying that the pressure I have 
received in the arguments I keep hearing are that you are 
holding up 5G because the satellite companies are going to 
litigate. You are going to get sued anyway. You always get 
sued. This is nothing different, and the issue is not whether 
you are going to be sued, it is whether they can get an 
injunction. And they are not going to get an injunction.
    So if they're not happy with $10 billion, make them a 
counter offer, $1 billion.
    Thanks, again. We will do this another time and talk about 
some of the other issues. I am repeating myself, including 
Commissioner O'Rielly, who I hope will come next time. And I 
didn't mean to offend him by not including him. You are all a 
bunch of smart people and I thank you for your public service. 
This meeting--oh, wait. What am I supposed to read, Andy? Do 
you want to read it?
    Andy: Nope.
    [Laughter.]

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kennedy. I want to thank our witnesses for 
testifying. If there are no further questions, the hearing 
record will remain open until next Tuesday for subcommittee 
Members to submit any statements or questions to the witnesses 
for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]
                  Questions Submitted to Hon. Ajit Pai
              Questions Submitted by Senator John Kennedy
    Question 1. In 2019, the FCC issued its 18-155 order to curb access 
arbitrage and to resolve access rate differences most acutely found 
between long distance providers and conferencing service providers. 
However, those disputes seem to still exist as there are numerous stays 
and legal challenges to the order. Furthermore, as a result of the 
implementation of the order, we understand that considerable traffic 
has been shifted from the rural areas that were a focus of the order to 
nationwide carriers, but this traffic shift has created network 
congestion and call failures.
    Do you consider traffic shifts as an intended or unintended 
consequence of the order?

    a.  What timeframes and carrier network considerations were 
assessed to ensure this shift to be successful and mitigate service 
disruptions?
    b.  You issued an order that dramatically changed the economics of 
call routing. Did you assume traffic would not shift?

    Answer. In 2011, when the Commission comprehensively reformed the 
Nation's intercarrier compensation system, the Commission also adopted 
rules to address the abuse of those intercarrier charges through access 
arbitrage. The Commission made clear that such arbitrage schemes were 
not in the public interest because they shifted the costs for 
conference calling services to all long distance customers, most of 
whom never used the conference calling services that were being given 
away to users of those services for free. Notwithstanding these rules, 
companies continued to find ways to game the intercarrier compensation 
system.
    To address this continuing concern, last year the Commission 
unanimously adopted an order to make local exchange carriers engaged in 
wasteful access arbitrage responsible for the costs of having calls 
delivered to them. When that order was adopted, the Commission expected 
that providers of high-volume calling services, such as conference 
calling, and their access-stimulating local exchange carrier partners 
would likely need to change their business model. Instead, it appears 
that access arbitrageurs are trying to circumvent the new rules by 
changing their routing practices in an attempt to continue to obtain 
implicit subsidies from long distance consumers. The calls are still 
nominally bound to phone numbers originally assigned to carriers 
providing service in rural areas, but in some instances, the 
arbitrageurs abruptly changed the locations where they want traffic 
delivered, picking spots with insufficient capacity to handle the 
increased load. In other instances, the arbitrageurs changed their 
routing practices to attempt to require the long distance carrier to 
bring traffic for conference calls and other non-geographic specific 
services (as opposed to residential and business customers located in a 
specific geographic area) all the way to the remote location where the 
access stimulating carrier is located, in an attempt to avoid the costs 
of their inefficient routing decisions.
    Routing changes occur all the time in our Nation's 
telecommunications networks and industry practice and procedures--and 
sometimes contracts negotiated between particular carriers--provide for 
the seamless completion of those changes. Those practices ensure that 
adequate notice of network changes is given to all carriers that will 
handle traffic on the affected routes and sufficient time is allowed so 
that adequate facilities are in place or constructed to handle 
anticipated calling volumes. It appears as though access arbitrageurs 
changed the routing of calls outside of these practices for the purpose 
of using the facilities of affiliated companies and perpetuating the 
implicit subsidies that Congress has directed the Commission to 
eliminate--all too often without regard for the impact of such actions 
on consumers. The Enforcement Bureau has already received an informal 
complaint on these issues and is reviewing next steps.

    Question 2. We also understand that there have been significant 
call failures since the implementation of the order and that continue 
to occur on daily basis. As I'm sure we can both agree, call completion 
is critical to the integrity of our telephone system, with numerous 
Commission rules addressing call completion requirements.
    What is the Commission currently doing to address ongoing call 
failures to the carriers and conferencing service providers affected by 
the order?

    a.  Can you assure me that long distance providers, such as AT&T, 
complete all calls to conference service providers, like 
FreeConferenceCall?

    Answer. We agree that call completion is very important to ensure 
the continuing confidence of all Americans in our communications 
network. We understand that as a result of the actions of high-volume 
calling providers and their access-stimulating local exchange carrier 
partners, attempts have been, and are being, made to re-route calls to 
avoid the financial consequences of the Commission's 2019 Access 
Arbitrage Order. These actions may also be attempts to use facilities 
of corporate affiliates of access arbitrageurs to unjustly enrich firms 
that continue to engage in access arbitrage, despite the Commission's 
clear guidance that such activity violates the public interest.
    If high-volume calling providers believe they have a legitimate 
grievance with another service provider, the Commission's Enforcement 
Bureau stands ready to adjudicate all complaints brought before them to 
ensure compliance with the Commission's rules and carriers' statutory 
obligations, including our access arbitrage rules and our call 
completion rules.
    The Commission's Consumer and Governmental Affairs Bureau collects 
consumer complaints and during the first 3 months of this year received 
only six complaints from consumers about difficulty reaching a free 
conference calling service.

    Question 3. We are all living in highly uncertain times, with the 
Coronavirus pandemic affecting ordinary, everyday life. It has been 
reported that conferencing service providers like Google, Zoom, and 
FreeConferenceCall are all seeing significant increases in demand for 
their free services as a result of this crisis, along with the 
reduction of travel and increase in social distancing becoming more 
prevalent.
    What is the Commission doing to ensure that the public switched 
telephone network and its carrier participants are prepared for the 
uncertain, increasing demands for increased remote work and crisis 
coordination?

    a.  Can you provide assurances that the increase demands on the 
telephone network will be accommodated without disruption to these 
critical services?

    Answer. Our Nation's communications networks, including the public 
switched telephone network, have performed well throughout the 
pandemic. I have encouraged each of the major industry associations to 
report directly to the public on the impacts they're seeing on their 
networks from the mass-migration to telework, remote learning, and 
telehealth, and I have directed Commission staff, in coordination with 
the Department of Homeland Security's Cybersecurity and Infrastructure 
Security Agency, to regularly speak with senior officials of the major 
communications providers as well as several industry associations. I 
personally have also held many virtual meetings with broadband and 
telephone service providers and the trade associations that represent 
them to discuss these issues.
    The agency has granted many special temporary authority (STA) 
emergency applications to expand access to radiofrequency spectrum 
resources in support of increased broadband usage. The FCC has granted 
STAs to AT&T, Sprint, T-Mobile, U.S. Cellular, and Verizon, to over 100 
wireless Internet service providers that provide service in rural 
communities, as well as others, such as those serving the Zuni Pueblo 
in New Mexico. The Commission continues to process additional STA 
applications and will work to maximize flexible use of available 
spectrum resources during the pandemic to support mobile voice and 
broadband connectivity.
    Finally, the Commission also granted a temporary waiver of its 
access-arbitrage rules to Inteliquent, a competitive local exchange 
carrier that originates interstate traffic for large, enterprise 
customers and terminates traffic for other clients, including two of 
the best known conference calling providers in the United States--Zoom 
Video Communications and Cisco WebEx. As a result of the COVID-19 
pandemic, Inteliquent's preexisting customers are helping to facilitate 
the massive shift to telework and distance learning. This shift 
materially altered Inteliquent's normal mix of originating and 
terminating traffic, such that Inteliquent would likely fall under the 
Commission's ``Access Stimulation'' definition even though it is not 
behaving like an access arbitrageur, which would have triggered 
significant financial consequences for Inteliquent if it did not 
receive a waiver. The temporary waiver will allow Inteliquent to 
continue to provide telecommunication services to its conferencing 
provider customers (like Zoom and Cisco WebEx), which in turn will 
enable them to continue to provide critical services to their customers 
including some of the country's largest universities, healthcare 
institutions, and non-profit organizations.

    Question 4. When you issued the access arbitrage order, you said 
``You've probably heard the expression, there's no such thing as a free 
lunch. As it turns out, there's no such thing as a free conference 
call.'' However, through this crisis, it is becoming clear just how 
valuable unrestricted access to these tools are for the coordination of 
resources through a crisis as well as to the continuity of our everyday 
life.
    Do you still stand by your statement?

    Answer. This crisis has given us all a stark reminder how important 
communications is in our daily lives, and in particular how important 
telecommunications is during this time when physical contact is so 
restricted. The Commission will do everything it can to ensure that our 
telecommunications networks function efficiently and effectively. That 
is why we will grant waivers of our rules when it is justified and is 
in the public interest to do so, and why more than 700 companies have 
signed our Keep Americans Connected pledge to help ensure that all 
Americans have the communications tools they need at this critical 
time.
    All of that does not mean, however, that the wasteful practice of 
access arbitrage suddenly becomes legitimate. More than ever, 
arbitrageurs' attempts to subsidize their own profits on the backs of 
unsuspecting, hardworking American consumers are against the public 
interest. And yes, there is still no such thing as a free conference 
call. Someone still must pay the costs associated with such a call. The 
only question is who that will be.

    Question 5. Mr. Chairman, incumbent licensees, such as refineries, 
utilize 900 MHz spectrum to carry out day-to-day operations and during 
emergency situations as part of their emergency response communications 
plans to protect the surrounding communities and the workers at these 
facilities, including in my home State of Louisiana. I understand the 
rule is likely to be finalized soon, but with no clear plan for 
relocation and protection of incumbents. I worry about this rule being 
finalized without a clear path forward.
    Can you share how the FCC plans to protect incumbent users of 900 
MHz spectrum so that they can, in turn, protect the safety of the 
surrounding communities?

    a.  Will the FCC have a clear plan in place to provide for the 
protection of incumbents, prior to finalization?

    Answer. The 900 MHz band (896-901/935-940 MHz) currently is 
designated for narrowband land mobile radio communications by Business/
Industrial/Land Transportation licensees and Specialized Mobile Radio 
providers. These radio systems provide communications networks to 
support the day-to-day operations of a wide variety of the Nation's 
businesses, including such industries as refineries, land 
transportation, utility, manufacturing, and nuclear. While 900 MHz 
licensees may continue to rely on narrowband deployments to satisfy a 
variety of communications needs, some 900 MHz licensees will require 
additional coverage and capacity to keep pace with the expanding need 
for enhanced connectivity.
    I have recently proposed to my colleagues a Report and Order to 
reconfigure the 900 MHz band for the deployment of broadband services 
and technologies. The new regulatory framework would allow 900 MHz 
licensees, like utilities, to obtain broadband licenses and would 
include operational and technical rules to minimize harmful 
interference to narrowband operations. The FCC will be voting on this 
Order at our May Open Meeting. The draft Report and Order is available 
at https://docs.fcc.gov/public/attachments/DOC-363915A1.pdf.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question 1. The next big bargain you will need to find compromise 
on will be the 6Ghz band. It is my understanding that the commission is 
looking at using this band for unlicensed uses such as gigabit WiFi and 
others that could be the next generation of at home connectivity. This 
is a big swath of spectrum that is important if the U.S. wants to 
continue to lead on connectivity and the 5G economy. If we are going to 
reach rural communities in Montana we are going to need every tool 
available: unlicensed, licensed, low-band, mid-band and more.

    a.  Can you give me an update on the commission's work to free up 
more spectrum to reach our rural communities?

    Answer. My top priority continues to be to close the digital divide 
so that every American, including those living in rural areas, enjoys 
the benefits of 5G and other advanced wireless services. In my March 
10, 2020 testimony, I updated you on the execution of the FCC's 5G FAST 
Plan, which has already made an unprecedented amount of spectrum 
available for commercial, flexible wireless use, promoted wireless 
infrastructure, and modernized regulations to encourage fiber 
deployment. I reported on the three auctions conducted during the prior 
16 months, where we made available almost five gigahertz of high-band 
spectrum for commercial use, as well as our adoption of rules for the 
C-band auction, which will provide much-needed mid band spectrum. And 
at our February Open Meeting, the Commission adopted a Notice of 
Proposed Rulemaking updating its white space rules to expand rural 
connectivity.
    During our April Open Meeting, the Commission addressed the 6 GHz 
spectrum you mention. This decision makes a contiguous 1,200 megahertz 
spectrum block available, enabling the use of very wide bandwidths that 
support high data rates. The innovative technologies and services that 
are poised to make use of this band will advance the Commission's goal 
of making broadband connectivity available to all Americans, especially 
those in rural and underserved areas. In particular, 850 megahertz of 
that spectrum could be used for outdoor deployments by wireless 
Internet service providers, schools, and businesses in rural 
communities.
    I appreciate your continued support for the Commission's all-of-
the-above approach to spectrum, and I look forward to continue working 
with you on this issue.

    Question 2. How much spectrum has been and is expected to be 
cleared for 5G wireless communications? Is it on par with other 
countries? Outside of licensed spectrum for wireless communications, 
what else will spectrum be needed for in order for the U.S. to lead in 
the new 5G economy?

    Answer. The FCC's 5G FAST Plan will help ensure the United States' 
position as the worldwide leader in the 5G economy. During the past 2 
years, we have conducted three auctions in which we made available 
almost five gigahertz of high-band spectrum for commercial use. We are 
also making licensed mid-band spectrum available for 5G. For example, 
we have authorized commercial deployments in the 3.5 GHz band (3.55-3.7 
GHz) and will be auctioning 70 megahertz of Priority Access Licenses in 
the band this summer. Our C-Band Order will make available 280 
megahertz for 5G (3.7-3.98 GHz).
    We are currently in the middle of a Tribal priority access window 
to 2.5 GHz spectrum and then will auction the rest of the unused 
spectrum in the band. And we are continuing to work on making available 
additional spectrum in the 3.1-3.55 GHz band, and the 4.9 GHz band, 
among others.
    Outside of licensed spectrum, the Commission continues to open up 
new unlicensed opportunities. We made available over 20 gigahertz of 
new unlicensed spectrum available above 95 GHz in the Spectrum Horizons 
proceeding, and we just opened another 1,200 megahertz for unlicensed 
use in the 6 GHz band. We also have proposed to reform the 5.9 GHz band 
to make an additional 45 megahertz available for unlicensed operations.
    All of these efforts position the United States to be the world 
leader in wireless innovation of all kinds. This spectrum, and the 
innovation it enables, will be needed for a wide variety of purposes: 
mobile broadband, Internet of Things applications, virtual and 
augmented reality, and other things we can't even conceive today. And I 
anticipate that its use will span virtually every industry, including 
transportation, healthcare, education, manufacturing, gaming, and much 
more.

    Question 3. I have worked with the commission on various new 
initiatives and look forward to continue to grow the toolbox of 
solutions for our State. One new technology that is interesting is Low 
Earth Orbiting satellites (LEOs). While still new and not fully tested, 
they present an opportunity to reach our most remote areas with much 
faster speeds then traditional satellite broadband. It is my 
understanding that the commission is including LEOs in the Rural 
Digital Opportunity Fund (RDOF).

    a.  How do you see LEOs addition impacting RDOF's funding and 
broadband deployment in rural areas?
    b.  Does the commission have pending license approvals for LEOs, 
what is the process for approvals, and how long until pending licenses 
are approved?

    Answer. The Commission adopted a technology-neutral approach to the 
$20.4 billion Rural Digital Opportunity Fund so that a diverse array of 
interested parties can participate. This includes any satellite company 
that can meet the required specifications. The Commission's decision 
requires participating entities to be able to provide voice and 
broadband services at a minimum speed of 25/3 Mbps, with a priority 
given to bidders that commit to provide faster service with lower 
latency. The Commission has sought comment on how to evaluate pre-
auction applications from nascent technologies, such as low-earth 
orbiting satellite constellations, to participate in the auction. Staff 
is currently reviewing comments received on this issue.
    Regarding licensing, the Commission has accepted applications for 
these non-geostationary orbit (NGSO) constellations, including low-
Earth orbiting constellations. The Commission has granted 14 such 
applications filed by 10 companies seeking to deploy NGSO 
constellations, both for the provision of broadband and other services 
(e.g. Internet of Things). In addition, SpaceX has already launched 
more than 300 satellites of its authorized constellations. Commission 
staff continues to work on the remaining pending applications.

    Question 4. I have heard concerns from Montana's veterans and 
adults who are hard of hearing about the Commission's addition of 
Automated Speech Recognition in the IP CTS Program. Every day new 
technology is created to address more solutions which boost our economy 
and raises our standard of living. However, it is important that as the 
FCC looks to add new services for the hard of hearing that we do not 
see a reduction in overall customer satisfaction. Last year I asked you 
to continue to work with affected groups in order to make sure their 
concerns are addressed and I appreciate the commission staff meeting 
with a number of parties recently.

    a.  Can you update me on how the commission is ensuring that 
accessibility, reliability, cost, choice and competition, is not 
negatively affected?
    b.  Can you update me on the quality and performance measures 
adopted?
    c.  Can you update me on how ASR-only IP CTS will be integrated 
into the 911 call system and if you expect any issues?

    Answer. IP CTS is a critical service for people with hearing loss, 
and I agree that consumers must receive quality service that is 
reliable. Notably, most IP CTS providers have relied on ASR for years 
to provide service to users. However, those providers insert a 
communications assistant--a person--between the caller and the ASR, 
requiring the communications assistant to revoice whatever the caller 
is saying. This substantially slows down transcription and reduces the 
privacy of users.
    That's why the Commission has found that ASR-only service is a 
viable alternative--it offers improvement in speed, accuracy, 
reliability, and privacy for consumers because you don't need a 
communications assistant to participate on the call. Additionally, the 
Commission found that allowing ASR-only service for IP CTS could 
provide greater security for the Telecommunications Relay Service Fund 
and reduce the current cost burden on Fund contributors. Like other IP 
CTS providers, ASR-only providers are required to comply with 
functional standards, including submission of data to determine Fund 
revenue requirements and payments, and comply with rules to safeguard 
the Fund from fraud, waste, and abuse.
    ASR-only service is subject to the Commission's minimum standards 
for all forms of TRS, such as being required to handle all types of 
calls, to ensure confidentiality, and to transmit calls verbatim in 
real time, without intentional alteration to content. Additionally, 
providers must meet the Commission's applicable technical standards, 
including speed-of-answer and redundancy requirements. Importantly, as 
with all forms of IP CTS, providers using ASR must demonstrate that 
their services support 911 emergency calls and meet the applicable 
emergency call handling requirements in Commission rules. Finally, ASR 
providers must report data to the Commission to help us determine if 
further measures are necessary.
    Consumers continue to be able to choose between multiple providers 
based on the quality of service and the methods the provider offers, 
including services that use communications assistants. While most IP 
CTS providers use ASR as part of their service, four entities have 
filed applications to provide ASR-only service. Those applications 
remain under review by Commission staff.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question 1. In 2019, the FCC canceled the Mobility Fund Phase II 
after it was found that the maps submitted by wireless carriers were 
widely inaccurate. For example, the Vermont Public Service Department 
had an employee drive every highway in the State to test the signals 
from the major carriers. The State then submitted the data from that 
drive test as part of the Commission's challenge process showing wide 
swaths of the State did not have coverage the carriers claimed. Rather 
than devise a new program to assist States lacking in 4G service the 
Commission has pushed forward with a new plan called 5G for Rural 
America.

    a.  Shouldn't the Commission be focusing resources towards those 
States that lack 4G connectivity rather than redirecting funds that 
will serve to further the digital divide? What steps will the 
Commission be taking to help those areas of the country that were 
expecting assistance from the Mobility Fund Phase II? Can the 
Commission explain how the 5G Fund for Rural America will help those 
areas waiting for 4G connectivity?

    Answer. We're at the dawn of the 5G era. 5G promises significantly 
faster speeds, lower latency, and better security than 4G LTE networks. 
It doesn't make sense to spend our universal service funds to deliver 
networks using predecessor technologies that will be outdated by the 
time they're operational and condemn rural wireless consumers to a 
continual game of catch-up with their urban counterparts. They deserve 
parity, and they deserve it now, not decades from now. At the same 
time, I agree that some areas have a greater need for support, which is 
why the Commission proposed in the 5G Fund Notice of Proposed 
Rulemaking adopted at our April agenda meeting to prioritize and 
provide greater support for areas that have historically lacked 4G LTE 
and 3G coverage.

    Question 2. Amid the COVID-19 outbreak, schools across the country 
are shuttering for weeks--maybe months--at a time. Many schools are 
turning to online education services. This is helpful to continue 
education, but proves problematic in regions where Internet 
connectivity is challenging at best, and sometimes even impossible.

    a.  What steps will the FCC be taking to connect with States about 
challenges their school districts face in providing quality, online 
education to students out of school?
    b.  Will you commit to evaluating those needs, reporting back to 
this Committee about the needs identified, and propose to this 
Committee policies and proposals that will address these gaps in 
coverage, so that we can ensure a level playing field--online--for 
students out of school due to this public health crisis?

    Answer. Since March, I have been working with Congress to 
appropriate dedicated funding for a remote learning initiative--one 
that will give students across this country an opportunity to connect 
with their teachers and online educational resources. Fortunately, the 
recently enacted Coronavirus Aid, Relief, and Economic Security Act 
(CARES) Act's Education Stabilization Fund provides one avenue for just 
such funding. In the CARES Act, the Elementary and Secondary School 
Emergency Relief Fund provides more than $13 billion in grants that 
elementary and secondary schools can use for purposes that include 
remote learning. In addition, the Governor's Emergency Education Relief 
Fund makes approximately $3 billion in emergency block grants available 
to governors to decide how to best meet the needs of students. 
Together, these Funds make $16 billion available to governors and 
schools, States, and localities to connect students to remote learning 
resources. The FCC is coordinating with the U.S. Department of 
Education on this effort, and I look forward to working with Secretary 
DeVos, Congress, and States to ensure these funds are properly spent to 
keep our students connected.
    Complementing this effort, we have also taken steps to help those 
schools that participate in the Commission's E-Rate program transition 
to online learning by waiving and extending several program rules and 
deadlines. One such waiver of the Commission's gift rule enables 
service providers to offer, and program participants to solicit and 
accept, free broadband connections, devices, and other services that 
support remote learning, which would otherwise be prohibited under our 
rules. Similarly, we have extended a number of E-Rate program deadlines 
to alleviate administrative and compliance burdens on schools and 
enable them to focus on transitioning to remote learning. This relief 
includes a 35-day extension of the application filing window for 
funding year 2020 and, more recently, a 1 year extension of the so-
called service implementation deadline for special construction to 
deploy fiber. Additionally, to facilitate community connectivity during 
the coronavirus pandemic, we clarified how schools and libraries may 
permit the general public to use E-Rate-supported Wi-Fi networks.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question 1. It's clear that there is bipartisan support for doing 
all we can to close the Digital Divide and ensure that every child, 
adult, and small business has the opportunity to access quality 
broadband speeds. Recently, the Commission launched the $20.4 billion 
Rural Digital Opportunity Fund (RDOF) to help improve and expand 
broadband access. I'm very concerned by the Federal Communications 
Commission's (FCC) last minute decision to effectively leave out areas 
where States have invested in their own broadband infrastructure.

    a.  Why would the FCC create a disincentive for States to invest in 
their own broadband infrastructure?

    Answer. The Commission has long supported other State and Federal 
efforts to close the digital divide. Indeed, the very first item I 
circulated as Chairman was an order to partner with the State of New 
York to facilitate their State efforts to get more Americans connected. 
But the question we faced with the Rural Digital Opportunity Fund was a 
different one, and the basic principle we followed is simple: If a 
service provider already has been given funding (Federal and/or State) 
to serve a particular area with at least 25/3 Mbps broadband, the FCC 
is not going to give them yet more taxpayer funding to do something 
they're already obligated (by Federal and/or State law) to do. That 
would be an irresponsible use of limited taxpayer dollars and would 
bestow a windfall on corporations that should not be paid for the same 
work twice at the expense of some areas that would otherwise not 
receive service.

    Question 2. It is important that we view broadband expansion as a 
long-term investment and ensure that the fiber underlying our broadband 
networks can last for 20 to 30 years, or more.

    a.  How does the RDOF program ensure that we are making investments 
that will stand the test of time and will not require new 
infrastructure investment in the coming years?

    Answer. It is imperative that the Universal Service Fund support 
sustainable, future-proofed networks that will support tomorrow's 
broadband applications, as well as today's. That's why, in January, we 
established final rules for the $20.4 billion Rural Digital Opportunity 
Fund that will have a significant impact in promoting the deployment of 
sustainable networks. The Commission will use a two-phase reverse 
auction that will provide support for up to gigabit service to millions 
of unserved Americans who currently lack access to fixed 25/3 Mbps 
broadband. The rules we adopted made three key departures from the 
previous CAF Phase II auction so that the Rural Digital Opportunity 
Fund supports networks that will stand the test of time. First, we more 
than doubled the minimum speeds that bidders must commit to provide. 
Second, we modified the weights that apply to bids to favor faster, 
lower latency networks. And third, as soon as the total price of all 
bids in the auction falls below the auction's budget, support will be 
awarded to the remaining bidder with the highest-performing network in 
each area. In other words, the auction will support the best, longest-
lasting network possible in each area given the available budget.

                          SUBCOMMITTEE RECESS

    Senator Kennedy. The subcommittee stands in recess subject 
to the call of the chair.
    [Whereupon, at 11:55 p.m., Tuesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
